<html>
<title> - FY 2013 BUDGET REQUESTS FROM THE NATIONAL PARK SERVICE AND THE BUREAU OF LAND MANAGEMENT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
FY 2013 BUDGET REQUESTS FROM THE NATIONAL PARK SERVICE AND THE BUREAU 

                          OF LAND MANAGEMENT

=======================================================================


                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       Tuesday, February 28, 2012

                               __________

                           Serial No. 112-97

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
73-148                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Paul Tonko, NY
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Doug Lamborn, CO                     Rush D. Holt, NJ
Paul C. Broun, GA                    Martin Heinrich, NM
Mike Coffman, CO                     John P. Sarbanes, MD
Tom McClintock, CA                   Betty Sutton, OH
David Rivera, FL                     Niki Tsongas, MA
Scott R. Tipton, CO                  John Garamendi, CA
Raul R. Labrador, ID                 Edward J. Markey, MA, ex officio
Kristi L. Noem, SD 
Mark Amodei, NV
Doc Hastings, WA, ex officio

                                 ------                                
      

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, February 28, 2012.......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     4

Statement of Witnesses:
    Abbey, Robert V., Director, Bureau of Land Management, U.S. 
      Department of the Interior.................................     5
        Prepared statement of....................................     6
    Jarvis, Jonathan B., Director, National Park Service, U.S. 
      Department of the Interior.................................    14
        Prepared statement of....................................    16




 OVERSIGHT HEARING ON ``FY 2013 BUDGET REQUESTS FROM THE NATIONAL PARK 

              SERVICE AND THE BUREAU OF LAND MANAGEMENT.''

                              ----------                              


                       Tuesday, February 28, 2012

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:08 a.m., in 
Room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, Rivera, Tipton, Amodei; 
Grijalva, Holt, and Sarbanes.
    Also Present: Representative Pallone.
    Mr. Bishop. Apologies for being late. The hearing will come 
to order. The Chair notes the presence of a quorum. The 
Subcommittee on National Parks, Forests and Public Lands is 
meeting today.
    Under the Rules, opening statements are limited to the 
Chairman and the Ranking Member. However, I ask unanimous 
consent to include any other Member's opening statement in the 
hearing record if submitted to the Clerk by the close of 
business today, and hearing no objections, that will be so 
ordered.
    Mr. Bishop. I want to thank the two witnesses that we will 
be having here today, Jon Jarvis, who is the Director of the 
National Park Service, and Bob Abbey, who is Director of the 
Bureau of Land Management, who have agreed to testify.
    Gentlemen, if you would like to come and take a seat at the 
table, we would be more than happy to do that right now.
    I ask unanimous consent to allow members of the Full 
Committee to be allowed to join us on the dais. Without 
objection, so ordered.
    I do want to know how Representative Amodei made it up here 
so quickly. I was in the elevator as it closed and you were 
still walking. How did you get here this fast?
    Mr. Amodei. I have nothing to add at this time.
    [Laughter.]
    Mr. Bishop. All right. Fine.
    [Laughter.]

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Today, we are here to discuss the President's 
Fiscal Year 2013 budget request for the National Park Service 
and Bureau of Land Management.
    While the President's 2013 NPS and BLM requests are nearly 
level with 2012, 2012 was still an exaggerated, bloated budget 
that was not sustainable and will destroy the country. Other 
than that, it was just fine.
    It is a budget that is asking for $237 million over the 
2008 level for the Park Service and $116 million more than they 
received for the BLM in 2008.
    The proposed budget of these two bureaus also includes a 
number of what I believe to be misplaced priorities, 
unrealistic offsets and some things that I hope are definite 
non-starters.
    The President's Fiscal Year 2013 budget request for the 
National Park Service and BLM is a clear indication of what I 
see as election year politics, placating special interest 
groups, that cannot be more important than what I hope would be 
rational and responsible management of our public lands.
    The Administration continues to place a higher priority on 
acquisition of even more land instead of caring for the vast 
properties that are already in the national portfolio.
    The Park Service has and continues to have a maintenance 
backlog that has been estimated between $9 billion and $11 
billion, and BLM has a deferred maintenance backlog estimated 
at $1 million for every one of those 245 million acres they are 
responsible for managing.
    Despite this, this election year budget advances priorities 
that will significantly expand the Federal estate and reduce or 
eliminate multiple use policies that provide a reasonable 
economic return for the land.
    BLM should be emphasizing sound scientific multiple use--
again, multiple use--so the American people can get the full 
range of benefits from our vast system of public lands.
    Only with well managed multiple use can our conservation, 
recreation, energy, mineral, food and other resources needs be 
met.
    The BLM's multiple use mandate is under duress. It appears 
that special interest groups' litigation and conceived 
settlements, sometimes done in secret, are having more 
influence over land use decisions instead of consideration of 
the law or appropriate consultation with impacted agencies and 
stakeholders.
    For example, the BLM is proposing to charge an 
administrative fee of $1 per AUM to assist in processing the 
grazing permits. Currently by law, the BLM charges a $1.35 fee 
per AUM for grazing permits.
    This proposal is a 75 percent increase in fees out of 
pocket for those who graze, for those ranchers who have those 
permits.
    If the true intent was to recoup actual costs and assist in 
the processing of grazing fees, why is the $1 per AUM not $1 
per permit or per application?
    Why also does the Interior budget say the fee will be used 
to mitigate proposed reductions in Rangeland Management 
Programs?
    This is almost like looking at those information 
commercials in which a product that costs $150 is going to be 
sold at $19.95 as long as you pay shipping and handling 
charges, which are around $130.
    It is wrong. It is wrong, and needs to be re-looked at.
    Last year, the Fish and Wildlife Service entered into a 
settlement agreement with the Center of Biological Diversity 
and the Wild Earth Guardians regarding the Endangered Species 
Act that expedited the time frame for consideration of listing 
the greater sage-grouse.
    As a result of this secretly constructed settlement, the 
BLM decided to develop an interim management strategy that will 
subordinate nearly all other uses of public lands in preference 
for greater sage-grouse habitat conservation.
    Finally, while the wild lands title may have disappeared 
from BLM talking points, and I thank you for that, a recent 
notice for the Carson City, Nevada District Resource Management 
Plan emphasized the BLM is seeking nominations for areas of 
critical environmental concern, and information on lands that 
may possess wilderness characteristics.
    On February 6, 2012, the Federal BLM issued a notice in the 
Federal Register affecting 2.4 million acres of public lands in 
Colorado, Utah and Wyoming, that BLM wanted to take a fresh 
look at land use plans in the aforementioned states dealing 
with oil shale and tar sand leases.
    Even though these announcements deal with energy related 
leases, the BLM will consider the wilderness characteristics in 
determining any future disposition of public lands in the 
affected areas.
    Is the Department of the Interior and BLM resurrecting wild 
land policies with these notices?
    I guess we now know why this Administration continues to 
request increased resource management planning. A $4.4 million 
increase over last year will certainly help accelerate special 
interest groups' goals of creating de facto wilderness through 
administrative fees.
    Those are all concerns that we have.
    With that, I thank our witnesses for being here. I look 
forward, kind of, to hearing the testimony, and look forward to 
the questions that will be asked, and with that, I now 
recognize our Ranking Member for his opening remarks, if he 
would like to make any at this time.
    Do you want to make some?
    Mr. Grijalva. Yes, sure.
    Mr. Bishop. Do you want to re-think that?

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. No. I just wanted to welcome Director Jarvis 
and Director Abbey. Welcome back. I want to thank you for being 
here and for all the thought, time and energy that you and your 
staff have put into this year's proposal.
    We understood from Secretary Salazar's testimony that the 
Department had to make some very difficult choices in an 
attempt to create a very challenging balance to the Interior 
Department.
    I want to point out that these cuts and reductions that we 
will be talking about today, also the cuts and reductions that 
will be proposed in this additional budget, these cuts to 
preservation, conservation, and land management to a great 
degree have nothing to do with the budget challenges that we 
face, and everything to do with persistent and pervasive anti-
environmental politics that are part of the discussion and part 
of the work of this Subcommittee and the Full Committee.
    We are talking today about starving popular Federal 
agencies, not by circumstance, but by design.
    We are talking today about letting public land go unmanaged 
because some of my colleagues do not believe government has a 
role to play in the management and multi-use mandate for our 
public lands.
    I think that is why we are here. I do not want there to be 
any confusion as to why we are here on some of the cuts and 
suggestions that you will see.
    The prevailing thought has been to look not at the multi-
use mandate or a balanced approach to our public land, but to 
view our public lands as a cash cow, and in doing so, forego 
preservation, conservation, and the right balance to the 
mandate.
    I support the investments that you are proposing in science 
and research, support the National Landscape Conservation 
System, and the proposal to acquire key lands for the Ironwood 
Forest Monument in Arizona.
    The reduced funding for the National Heritage Areas and 
construction programs are disappointing yet understandable.
    I look forward to hearing from you today, discussing your 
plans for this year, and I yield back, Mr. Chairman. Thank you.
    [The prepared statement of Mr. Grijalva follows:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
        Subcommittee on National Parks, Forests and Public Lands

    Good Morning.
    Director Jarvis and Director Abbey, welcome back to our 
Subcommittee.
    I want to thank you for joining us today to discuss your agency's 
budget.
    I applaud the thought, time and energy that you and your staff have 
put into this year's proposal.
    I understand from Secretary Salazar's testimony that the Department 
made very difficult decisions regarding spending.
    I commend you for being realistic about the budget situation while 
still remaining true to your missions.
    I support the investment in science and research, the support of 
the National Landscape Conservation System, and the proposal to acquire 
key lands for the Ironwood Forest National Monument in Arizona.
    Reduced funding for National Heritage Areas and construction 
programs are disappointing but understandable.
    I look forward to hearing from you today as we discuss your plans 
for this year.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Grijalva. We appreciate once 
again our guests being here. Do you have a preference on who 
goes first? We will do this alphabetically, Mr. Abbey from BLM, 
if you would first speak to us.
    Obviously, your written statements are part of the record, 
adding anything to this in an oral statement, you know the 
drill, with the five minutes that are in front of you, and 
after Mr. Abbey, Mr. Jarvis.
    If you would proceed. Welcome. Thank you. The time is 
yours.

             STATEMENT OF ROBERT ABBEY, DIRECTOR, 
                   BUREAU OF LAND MANAGEMENT

    Mr. Abbey. Thank you, Mr. Chairman and Ranking Member 
Grijalva. It is always a pleasure to appear before the 
Subcommittee and talk about issues that I care very deeply 
about, and that is public lands and the uses that are occurring 
on these public lands.
    Today, we are here to discuss the President's Fiscal Year 
2013 budget request for the Bureau of Land Management.
    As many of you know, the Bureau of Land Management is 
responsible for managing 245 million acres of public lands, 
primarily in the 12 Western States, as well as approximately 
700 million acres of on-shore subsurface mineral estate 
nationwide.
    BLM's unique multiple use management of public lands 
includes activities as varied as energy production, mineral 
development, livestock grazing, outdoor recreation, and 
conservation of key national, historical, cultural and other 
important resources.
    The BLM is one of a handful of Federal agencies that 
generates more revenue than it spends. BLM's management of 
public land resources and protection of public land values 
results in extraordinary economic benefits to local communities 
and to this nation.
    It is estimated that in 2011, BLM's management of public 
lands contributed more than $120 billion to the national 
economy and supported more than 550,000 American jobs.
    BLM's total Fiscal Year 2013 budget request is $1.1 
billion, $500,000 below the 2012 enacted budget.
    The budget proposal reflects the Administration's efforts 
to maximize public benefits while recognizing the reality of 
the current fiscal situation.
    The proposed BLM budget makes strategic investments in 
support of important Administration and Secretarial initiatives 
which will reap benefits for years to come.
    I would like to highlight just a couple of those 
investments. First, the America's Great Outdoors initiative 
promotes BLM's multiple use mission by expanding opportunities 
for recreation, including hunting, fishing, and off highway 
vehicle use, while enhancing the conservation and protection of 
BLM managed lands and resources.
    The BLM's Fiscal Year 2013 budget request calls for a $6.3 
million increase to support this initiative, and includes funds 
for managing national monuments, national conservation areas, 
national scenic and historic trails, wild and scenic rivers, as 
well as off highway vehicle use.
    The New Energy Frontier initiative recognizes the value of 
environmentally sound and scientifically grounded development 
of both conventional and renewable energy resources on public 
lands.
    Conventional energy resources on these lands continue to 
play a critical role in meeting the nation's energy needs.
    During 2011, the BLM held 32 on-shore oil and gas lease 
sales, which generated around $256 million in revenue. On-shore 
mineral revenues are estimated to be $4.4 billion in 2013.
    The 2013 budget strengthens the BLM's oil and gas 
inspection capability through a proposed fee on oil and gas 
producers. This will generate an estimated $48 million in funds 
to improve safety and production inspections for oil and gas 
operations.
    In addition, the budget also proposes $13 million in 
increased funding to continue to implement leasing reform 
efforts.
    President Obama, Secretary Salazar, and the Congress have 
stressed the critical importance of renewable energy to the 
nation's energy security and long-term economic development, 
and to the protection of the environment.
    To date, Secretary Salazar has approved 29 commercial scale 
renewable energy projects on public lands, including 16 solar, 
five wind, and eight geothermal projects that represent more 
than 6,500 megawatts and 12,500 jobs.
    BLM intends to reach its goal of permitting 11,000 
megawatts in 2013. That is two years ahead of the congressional 
mandate.
    BLM's 2013 budget proposal proposes a $5 million increase 
for these efforts. Our budget proposes an increase of $15 
million to implement broad scale sage-grouse conservation 
activities to ensure the long-term sustainability of sage-
grouse, and to help prevent the future listing of this species 
for protection under the Endangered Species Act, which will 
allow multiple use activities to continue on BLM managed lands.
    Reforming the wild horse and burro program to make it 
fiscally sustainable is also one of our top priorities. To that 
end, the proposed 2013 budget includes $2 million for efforts 
to research and improve herd fertility control.
    The National Academy of Science report assessing BLM's 
management of wild horses and burro's is expected to be 
completed in 2013.
    Finally, the budget proposes legislative initiatives to 
reform hard rock mining, remediate abandoned mines, and 
encourage diligent development of non-producing oil and gas 
leases.
    Our 2013 budget request provides funding for the agency's 
highest priority initiatives, maximizes public benefits, and 
reflects difficult choices.
    Mr. Chairman, thank you again for the opportunity to 
testify.
    [The prepared statement of Mr. Robert Abbey follows:]

                Statement of Robert V. Abbey, Director, 
       Bureau of Land Management, U.S. Department of the Interior

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting me to testify on the President's Fiscal Year (FY) 2013 budget 
request for the Bureau of Land Management (BLM).
    The BLM, an agency of the U.S. Department of the Interior (DOI), is 
responsible for managing our National System of Public Lands, which are 
located primarily in 11 western States. The BLM administers over 245 
million surface acres, more than any other Federal agency. The BLM also 
manages approximately 700 million acres of onshore subsurface mineral 
estate throughout the Nation. The BLM's unique multiple-use management 
of public lands includes activities as varied as energy production, 
mineral development, livestock grazing, outdoor recreation, and the 
conservation of natural, historical, cultural, and other important 
resources. The BLM is one of a handful of Federal agencies that 
generates more revenue than it spends.
Providing For Our Nation's Needs
    The BLM's multiple-use management and protection of public land 
resources results in extraordinary economic and other benefits to local 
communities and to the Nation. The economic output associated with the 
public lands is considerable. Commodity, recreation, and conservation 
uses on the public lands generated an estimated combined economic 
output of more than $120 billion nationwide and supported more than 
550,000 American full and part-time jobs, according to the Department 
of the Interior Economic Contributions report of June 21, 2011.
    One element of these economic benefits is the BLM's contribution to 
America's energy portfolio. During calendar year 2011, the BLM held 32 
onshore oil and gas lease sales--covering nearly 4.4 million acres--
which generated about $256 million in revenue for American taxpayers. 
Onshore mineral leasing revenues are estimated to be $4.4 billion in 
2013. The 2011 lease sale revenues are 20 percent higher than those in 
calendar year 2010. There are currently over 38 million acres of oil 
and gas under lease, and since only about 32 percent of that acreage is 
currently in production, the BLM is working to provide greater 
incentives for lessees to make production a priority. In FY 2011, the 
Department of the Interior collected royalties on more than 97 million 
barrels of oil produced from onshore Federal minerals. Moreover, the 
production of nearly 3 trillion cubic feet of natural gas made it one 
of the most productive years on record. BLM-managed Federal coal 
leases, meanwhile, power more than 20 percent of the electricity 
generated in the United States.
    The BLM also is leading the Nation on the new energy frontier, 
actively promoting solar, wind, and geothermal energy development. 
Under Secretary Salazar, BLM has approved permits for 29 commercial-
scale renewable energy projects on public lands or the transmission 
associated with them since 2009. This includes 16 solar, five wind, and 
eight geothermal projects. Together, these projects represent more than 
6,500 megawatts and 12,500 jobs, and when built will power about 1.3 
million homes. In addition, the Department has identified more than 
3,000 miles of transmission lines for expedited review. Enhanced 
development of wind power is a key component of our Nation's energy 
strategy for the future. There are currently 437 megawatts (MW) of 
installed wind power capacity on BLM-managed public lands, but there 
are 20 million acres of public lands with wind potential. Additionally, 
nearly half of U.S. geothermal energy production capacity is from 
Federal leases. The 2013 budget reflects a goal of permitting a total 
of 11,000 MW of clean renewable energy by the end of 2013.
    The BLM contributes to local communities and the national economy 
in many ways other than energy production. The Department estimates 
that more than $5 billion in annual economic benefits are estimated to 
result from timber- and grazing-related activities and non-energy 
mineral production from BLM-managed forest, range, and mineral estate 
lands. Conservation lands, meanwhile, are valued for their outstanding 
recreational opportunities as well as for their important scientific, 
cultural, and historic contributions. Protecting these places preserves 
the careful balance in management mandated by law, a balance that we 
need on our public lands. Public land recreational activities also 
provide major economic benefits to economies in nearby communities. 
Nearly 58 million recreational visits took place on BLM-managed lands 
in 2011 alone. In 2010, recreation on BLM lands supported an estimated 
59,000 jobs and resulted in about $7.4 billion in economic output. 
Recreational hunters, off-road vehicle enthusiasts, mountain bikers, 
backpackers, anglers, and photographers discover endless opportunities 
on BLM-managed lands. These and many other recreational opportunities 
are vital to the quality of life enjoyed by residents of the 
increasingly urbanized western states, as well as national and 
international visitors.
FY 2013 Budget Overview
    The BLM's budget makes significant investments in America's 
economy, while making difficult choices to offset priority funding 
increases. Investments in this budget will promote America's energy 
production at home and grow America's outdoor economy. The budget 
request allows the BLM to advance a number of important initiatives, 
including America's Great Outdoors and the New Energy Frontier, and to 
implement a number of BLM priorities such as restoring landscapes and 
conserving habitat for sage grouse, expanding research into population 
controls for wild horses, and reforming hardrock mining on public 
lands.
    The total FY 2013 BLM budget request is $1.1 billion in current 
authority, which is essentially level with the 2012 enacted level. The 
budget proposes $952.0 million for the Management of Lands and 
Resources appropriation and $112.0 million for the Oregon and 
California Grant Lands appropriation, the BLM's two main operating 
accounts. The budget makes strategic funding shifts to target high-
priority initiatives, scales back on lower-priority programs, and 
sustains and expands energy program activities. The budget also 
includes several important legislative proposals linked to the uses of 
lands and resources, including proposals to fund the remediation of 
abandoned hardrock mines; to provide a fair return to the taxpayer from 
the production of several hardrock minerals on Federal lands; to 
encourage diligent development of oil and gas leases; to repeal a 
prohibition on charging oil and gas permitting fees along with 
associated mandatory funds; and to reauthorize the Federal Land 
Transaction Facilitation Act.
    A crucial factor in the BLM's ability to fulfill its diverse 
mission and many responsibilities continues to be strong engagement 
with partner organizations and volunteers in the management of the 
public lands. Reciprocal partnerships and volunteer contributions are 
critical. Through partnerships with organizations and local 
communities, and through the generosity of volunteers, the BLM 
effectively leverages external resources, and expands its ability to 
meet public land management goals. Partnerships also foster an enhanced 
sense of stewardship and community for the people most closely 
connected to those lands.
Growing Our Outdoor Economy & Protecting Special Places--America's 
        Great Outdoors
    In the rapidly urbanizing west, over 40 million Americans living in 
more than 4,000 nearby cities and communities can access BLM-managed 
public lands right in their own backyards. Within a day's drive of 16 
major urban areas there are over 100 million acres of BLM-managed 
public lands. Given the proximity of the public lands to these 
population centers, the BLM is in a unique position to contribute 
significantly in advancing the President's initiative to reconnect 
Americans and our youth to the great outdoors. The America's Great 
Outdoors (AGO) Initiative promotes the BLM's multiple-use mission by 
expanding opportunities for recreational activities--including hunting, 
fishing, and off-road vehicle use--while enhancing the conservation and 
protection of BLM-managed lands and resources. All of these activities 
have a place at the multiple-use table and strengthen the BLM's 
connection to western communities and to visitors to the public lands. 
The BLM's FY 2013 budget request includes $6.3 million in program 
increases for various AGO-related programs in BLM's operating accounts. 
The 2013 budget also includes increases for programs funded through the 
Land and Water Conservation Fund, a vital component of the America's 
Great Outdoors initiative. The BLM's total 2013 budget request for the 
LWCF land acquisition program is $33.6 million, an increase of $11.2 
million over the 2012 enacted-funding level.
    National Landscape Conservation System--Acts of Congress and/or 
Presidential proclamations have designated more than 27 million acres 
of public land into the BLM's National Landscape Conservation System 
(NLCS). These areas are managed to conserve, protect, and restore the 
conservation values for which they are designated, while allowing for 
appropriate multiple uses. National Monuments and National Conservation 
Areas, Wilderness Areas, Wilderness Study Areas, Wild and Scenic 
Rivers, and National Scenic and Historic Trails are all included as 
NLCS units. These areas are amazingly diverse, ranging from broad 
Alaskan tundra to red-rock deserts and from deep river canyons to 
rugged ocean coastlines. While some of these special places are 
surprisingly accessible, many others remain remote and wild.
    The NLCS units include over 2,700 recreation sites and 22 visitor 
centers that serve some 13 million visitors annually. Approximately 
one-fourth of recreation use of BLM lands occurs within units of the 
NLCS. Thus, the NLCS contributes to the sustainability of economies in 
local communities in a variety of ways. Near Las Vegas, Nevada, for 
example, the extremely popular Red Rock Canyon National Conservation 
Area is visited by over 1 million people each year. In FY 2011, 
visitors to this NCA generated nearly $2 million in recreation fees 
that were re-invested in the area, directly contributing to the 
regional tourist economy and supporting 50 private-sector jobs. The BLM 
also emphasizes the creation of recreation facilities in nearby 
communities outside of NLCS units. Finally, in addition to recreation, 
the NLCS supports opportunities for scientific research, the protection 
of critical habitat for threatened and endangered species, and the 
protection of nationally-significant cultural resources.
    The BLM's 2013 proposed budget includes a $3.0 million increase for 
National Monuments and National Conservation Areas. The increase will 
allow the BLM to increase a variety of activities, including enhancing 
law enforcement, enhancing visitor safety and experiences, and 
expanding interpretation programs and products.
    Recreation Management--Visitors to BLM-managed lands enjoy a broad 
range of recreation opportunities such as hunting, camping, fishing, 
hiking, horseback riding and shooting sports; many motorized activities 
such as boating and OHV riding; as well as extreme sports and special 
events. These activities are essential components of western 
communities' economies and quality of life. The BLM manages more than 
600 Special Recreation Management Areas, along with 3,500 recreation 
sites, campgrounds, day-use areas and other facilities, and 40 major 
visitor centers and visitor contact stations. In addition, the agency 
provides recreation opportunities and protection of resource values on 
more than 10,000 miles of BLM-administered waterways, including over 
2,400 miles in 69 designated Wild and Scenic Rivers. The BLM also 
manages 15,000 miles of recreation-use trails and another 98,000 miles 
of Back Country-Scenic Byways and public access roads and routes, and 
oversees 3,400 commercial and competitive use permits and concessions, 
supporting thousands of businesses and communities across the West. 
Most BLM-managed lands and recreational areas (over 95 percent) are 
free to the public.
    In FY 2013, an increase of $2.2 million in the Recreation Resources 
Management program is proposed to allow the BLM to continue to develop 
and implement more travel management plans ($1.1 million) and also 
strengthen management of the National Scenic and Historic Trails 
($700,000) and the Wild and Scenic Rivers ($400,000).
    Cultural Resource Management--The FY 2013 budget proposes an 
increase of $1.1 million for the inventory, protection, and 
interpretation of places of special meaning to the diverse communities 
of the American West, and will allow the BLM to conduct regional ethno-
geographic landscape assessments; engage underrepresented groups in 
heritage resource stewardship; repatriate to Native Americans human 
remains and cultural items held in BLM collections; and implement the 
Paleontological Resources Preservation subtitle of the Omnibus Public 
Lands Act of 2009.
    Land Acquisition--The 2013 Federal Land Acquisition program builds 
on efforts started in 2011 and 2012 to strategically invest in 
interagency landscape-scale conservation projects while continuing to 
meet agency-specific programmatic needs. The Department of the Interior 
and the U.S. Forest Service collaborated extensively to develop a 
process to more effectively coordinate land acquisitions with 
government and local community partners to achieve the highest priority 
shared conservation goals.
    A portion of the funding allocated from the LWCF to each of the 
bureaus targets a collaborative effort to focus acquisition projects 
from each bureau in high-priority landscapes. This effort leverages 
acquisition funding for larger-scale goals of collaborative landscape 
management. The proposed budget funds two collaborative acquisition 
projects within the Department's high-priority landscape areas. The 
BLM's core acquisition program is aligned with the larger Departmental 
collaborative initiative; 97 percent of BLM's acquisitions in its core 
program in 2013 will occur in the Department-designated collaborative 
priority landscapes with two projects located in two of the three high-
priority ecosystems. The budget funds 10 high-priority core land 
acquisition projects in seven states and includes $2.5 million for 
acquisition of lands or interest in lands for hunting and fishing 
access on BLM lands. These projects will provide access to public 
lands; improve river and riparian conservation and restoration; 
conserve or protect wildlife habitat; preserve open spaces; provide for 
historic and cultural resources preservation; and create opportunities 
for public recreation at landscape or ecosystem levels.
    Federal Land Transaction Facilitation Act Reauthorization--The 
President's budget also includes a legislative proposal to reauthorize 
the Federal Land Transaction Facilitation Act (FLTFA), which expired in 
July of 2011. Under the FLTFA, the BLM was able to sell public lands 
identified for disposal through the land use planning process prior to 
July 2000, and retain the proceeds from those sales in a special 
account in the Treasury. The BLM then used those funds to acquire, from 
willing sellers, environmentally sensitive land inholdings with 
exceptional resources. During FLTFA's 11-year history, the BLM sold 
approximately 27,000 acres under this authority and acquired 
approximately 18,000 acres of remarkable landscapes.
    The 2013 budget includes a proposal to reinstate the FLTFA and 
allow lands identified as suitable for disposal in recent land use 
plans to be sold using the FLTFA authority. FLTFA sales revenues would 
continue to be used to fund the acquisition of environmentally 
sensitive lands and the administrative costs associated with conducting 
sales. The Department strongly urges the Congress to reauthorize this 
important tool which provides for a rational process of land disposal 
that is anchored in public participation and sound land use planning, 
while providing for land acquisition to strengthen our Nation's most 
special places.
Promoting American Energy Production at Home
    The Secretary's New Energy Frontier Initiative emphasizes the value 
of scientifically-based, environmentally-sound development of both 
renewable and conventional energy resources on the Nation's public 
lands. The BLM's proposed FY 2013 budget advances the goals of the 
initiative by including priority funding for both renewable and 
conventional energy development on public lands.
    Renewable Energy--President Obama, Secretary Salazar, and the 
Congress have stressed the critical importance of renewable energy to 
the future of the United States. Success in attaining the Nation's 
goals to reduce greenhouse gas emissions, mitigate climate change, and 
protect the global environment relies on sustained efforts to develop 
renewable energy resources. Renewable energy production is vital to our 
Nation's long-term economic development and energy security. The 
development of renewable energy creates American jobs and promotes 
innovation in the United States while reducing the country's reliance 
on fossil fuels.
    The BLM continues to make significant progress in promoting 
renewable energy development on the public lands in 2012, including 
working to approve additional large-scale solar energy projects and 
complete a draft Solar Programmatic Environmental Impact Statement to 
provide for landscape-scale siting of solar energy projects on public 
lands. The agency is working on wind development mitigation strategies 
with wind energy applicants and other Federal agencies, and is 
currently reviewing over 45 wind energy applications. Additionally, the 
transmission infrastructure required to deliver renewable energy from 
production facilities to major markets relies on corridors across BLM-
managed lands.
    The 2013 budget request includes a total program increase of $7.0 
million in the Renewable Energy Management program, including $5.0 
million in new funding. This will support additional environmental 
studies to accelerate the identification of prime areas for utility-
scale renewable energy project development. It will also enable the BLM 
to continue ongoing program management responsibilities associated with 
geothermal energy development by replacing mandatory funding previously 
provided by the Geothermal Steam Act Implementation Fund, for which new 
deposits have ceased. The remaining $2.0 million increase is a transfer 
of geothermal funds from the oil and gas management program to the 
BLM's renewable energy program.
    Conventional Energy--Secretary Salazar has emphasized that 
conventional energy resources on BLM-managed lands continue to play a 
critical role in meeting the Nation's energy needs. Conventional energy 
development from public lands produces 41 percent of the Nation's coal, 
13 percent of the natural gas, and 5 percent of the domestically-
produced oil. The Department's balanced approach to responsible 
conventional energy development combines onshore oil and gas policy 
reforms with effective budgeting to provide appropriate planning and 
support for conventional energy development.
    The President's FY 2013 budget proposes $13.0 million in oil and 
gas program increases to provide industry with timely access to Federal 
oil and gas resources, backed by the certainty of defensible 
environmental analysis. Of that increase, a $5.0 million program 
increase will restore the BLM's leasing and oversight capacity to the 
2011 enacted level. An additional $3.0 million will be used for large, 
regional-scale studies and environmental impact statements for oil and 
gas leasing and development issues. Finally, an additional $5.0 million 
programmatic increase will allow the BLM to fully implement its leasing 
reform strategy without sacrificing other important program goals.
    An additional $10 million, to be offset by new industry fees, is 
requested to ensure that oil and gas production is carried out in a 
responsible manner as a primary BLM commitment. The BLM conducts 
inspections to confirm that lessees meet environmental, safety, and 
production reporting requirements. The BLM recently initiated a program 
using a risk-based inspection protocol for production inspections, 
based on production levels and histories. Success realized in this 
program will support expansion of this risk-based strategy to the other 
types of inspections the BLM performs. The risk-based strategy will 
maximize the use of inspection staff to better meet BLM inspection 
goals and requirements in the future.
    The 2013 budget proposes to expand and strengthen the BLM's oil and 
gas inspection capability through new fee collections from industry, 
similar to the fees now charged for offshore inspections. The fee 
schedule included in the budget is estimated to generate $48.0 million 
in collections, which would offset a proposed reduction of $38.0 
million in BLM's appropriated funds, while providing for a net increase 
of $10.0 million in funds available for this critical BLM management 
responsibility. The increased funding is aimed at correcting 
deficiencies identified by the Government Accountability Office in its 
February 2011 report, which designated Federal management of oil and 
gas resources including production and revenue collection as high risk. 
The $10.0 million increase will help BLM achieve the high priority goal 
of increasing the completion of inspections of Federal and Indian high 
risk oil and gas cases by nine percent over 2011 levels. The BLM will 
also complete more environmental inspections to ensure environmental 
requirements are being followed in all phases of development. Fee 
levels will be based on the number of oil and gas wells per lease so 
that costs are shared equitably across the industry.
    To encourage diligent development of new oil and gas leases, the 
Administration is proposing a per-acre fee on each nonproducing lease 
issued after enactment of the proposal. The $4-per-acre fee on non-
producing Federal leases (onshore and offshore) would provide a 
financial incentive for oil and gas companies to either put their 
leases into production or relinquish them so that tracts can be re-
leased and developed by new parties.
Sage-Grouse Conservation
    The 2013 BLM budget proposal includes an increase of $15.0 million 
to implement broad-scale sage-grouse conservation activities to ensure 
the long-term sustainability of sage-grouse and to help prevent the 
future listing of this species for protection under the Endangered 
Species Act. The BLM--which manages more habitat for the Greater sage-
grouse than any other Federal agency--has been working proactively on 
this issue on a number of fronts, including issuing guidance to its 
field offices that calls for expanding the use of new science and 
mapping technologies to improve land-use planning. With the increase, 
the BLM will strengthen its regulatory mechanisms for managing the sage 
grouse habitat. The increase will also support monitoring and 
restoration efforts. To better focus its sage-grouse habitat 
conservation efforts, BLM has partnered with the U.S. Fish and Wildlife 
Service (FWS), the Natural Resource Conservation Service, the 
Agricultural Research Service, and State fish and wildlife agencies to 
share information and develop better management strategies.
    Two-thirds ($10.0 million) of the requested increase will support 
regulatory certainty for future land-use planning. Through 2015, the 
BLM will put in place the necessary mechanisms, through the agency's 
land-use planning process, to address conservation of sage-grouse. This 
will require the incorporation of conservation measures into as many as 
98 land use plans in 68 planning areas within the range of sage-grouse 
to designate priority sage-grouse habitat. Within these priority areas, 
the BLM will set disturbance thresholds for energy and mineral 
development, develop and implement specific best management practices 
for livestock grazing, establish restrictions for OHV use and other 
recreational activities, and implement aggressive fire suppression and 
post-fire restoration tactics. Amending these land use plans will 
provide the regulatory certainty requested by the FWS and will involve 
the following actions: land-use plan amendments ($6.5 million); 
landscape-level project environmental assessments ($2.0 million); 
travel management planning ($1.0 million); and candidate conservation 
agreement development ($500,000), for a total of $10.0 million. The 
remaining $5.0 million would be spent in the following manner: $2.5 
million for habitat restoration and improvement projects and $2.5 
million for habitat mapping, assessment, and monitoring. The BLM will 
implement monitoring activities to ascertain the effectiveness of 
habitat management and the effect of various land-use authorizations. 
This new broad-scale monitoring effort will fill critical data and 
information gaps necessary for sage-grouse habitat protection and 
restoration. Conservation efforts implemented on BLM-managed land will 
be of limited benefit if conservation practices are not monitored and 
applied uniformly across jurisdictional boundaries.
Managing Across Landscapes--Cooperative Landscape Conservation 
        Initiative
    Unprecedented, widespread environmental and human influences are 
shaping ecological conditions across the public lands. Major large 
scale stressors include the effects of climate change, catastrophic 
wildland fire, invasive species, population growth, and conventional 
and renewable energy development. The Secretary recognizes the need to 
understand the changing conditions of BLM-managed landscapes on a broad 
level and continues to promote the Cooperative Landscape Conservation 
initiative. Working with State, Federal, and non-governmental partners, 
the BLM is developing a landscape approach to better understand these 
challenges and support balanced stewardship of the public lands. The 
BLM is coordinating its efforts with other DOI bureaus and partners 
through its participation in the network of Landscape Conservation 
Cooperatives (LCCs).
    The BLM's FY 2013 budget request of $17.5 million, while unchanged 
from the 2012 enacted level, continues to support the work of its 
resource managers through the LCCs. Funding will enable managers to 
conduct additional eco-regional assessments to provide a better 
understanding of adverse impacts to the health of BLM lands and the 
larger western landscapes of which they are a part, and to implement 
various land health treatments to help combat the effects of these 
impacts. A landscape approach fosters broader understanding of the 
environment to inform, focus, and integrate the BLM's national and 
local resource management efforts. This offers a framework for 
integrating science with management; for coordinating management 
efforts and directing resources where they are most needed; and for 
adapting management strategies and actions to changing conditions and 
new information. It also provides an important foundation for 
developing coordinated management strategies with partner agencies, 
stakeholders, and American Indian Tribes.
Other Priority Increases
    Wild Horse & Burro Program--Reforming BLM's Wild Horse and Burro 
Management program to make it fiscally sustainable is one of Secretary 
Salazar's and the BLM's top priorities. To that end, the 2013 budget 
includes a program increase of $2.0 million over the 2012 enacted level 
for efforts to research and improve herd fertility control. The goal of 
the research will be to develop additional methods to minimize wild 
horse population growth and maintain herd health. The increase, a 
result of the tough choices made in the 2013 budget, invests in R&D to 
protect the health and environment of the Nation.
    In FY 2013, the BLM intends to remove 7,600 animals from the range, 
consistent with FY 2012, and to continue to pursue public-private 
partnerships to hold excess horses gathered from Western public 
rangelands. The current strategy also aims to significantly increase 
the number of mares treated with fertility control, from 500 in 2009 to 
a target of 2,000 in 2012 and in 2013, and to remove additional mares 
to adjust herd sex ratios in favor of males. The long-term goal is to 
slow the annual population growth rate for wild horses, while at the 
same time maintaining herd health, in order to decrease or eliminate 
the need to remove excess animals. The BLM is awaiting the results of a 
study by the National Academy of Sciences (NAS) to review previous wild 
horse management studies and make recommendations on how the BLM should 
proceed in light of the latest scientific research. The NAS expects to 
provide its report in early 2013. Congress has asked the BLM to find 
ways to manage these much-loved symbols of the West in a cost-
effective, humane manner, and the Bureau is committed to accomplishing 
this goal.
    Resource Management Planning--The BLM's FY 2013 budget proposal 
includes an increase of $4.4 million to support high-priority land-use 
planning efforts, including the initiation of several new plan 
revisions in 2013. The planning process encourages collaboration and 
partnerships which help the BLM determine how to manage public lands to 
balance the needs of adjacent communities with the needs of the nation.
    Secretary's Western Oregon Strategy--The 2013 budget proposal also 
includes an increase of $1.5 million in the O&C Forest Management 
program to increase the volume of timber offered for sale through 
support of timber sale planning, layout and design, engineering, and 
sale appraisal; support key resource management planning objectives; 
increase surveying for rare, uncommon, or endangered species; provide 
for landscape-level timber sale project environmental analysis; and 
facilitate joint development and implementation of a revised recovery 
plan for the northern spotted owl.
Abandoned Mine Lands & Hardrock Mining Reform Proposals
    The budget includes legislative proposals to address abandoned mine 
land (AML) hazards on both public and private lands and to provide a 
fair return to the taxpayer from hardrock production on Federal lands. 
The first component addresses abandoned hardrock mines across the 
country through a new AML fee on hardrock production. Just as the coal 
industry is held responsible for abandoned coal sites, the 
Administration proposes to hold the hardrock mining industry 
responsible for abandoned hardrock mines. The proposal will levy an AML 
fee on all uranium and metallic mines on both public and private lands 
that will be charged on the volume of material displaced after January 
1, 2013. The receipts will be distributed by BLM through a competitive 
grant program to restore the Nation's most hazardous hardrock AML sites 
on both public and private lands using an advisory council comprising 
of representatives of Federal agencies, States, Tribes, and non-
government organizations. The advisory council will recommend objective 
criteria to rank AML projects to allocate funds for remediation to the 
sites with the most urgent environmental and safety hazards. The 
proposed hardrock AML fee and reclamation program would operate in 
parallel to the coal AML reclamation program, as two parts of a larger 
effort to ensure that the Nation's most dangerous coal and hardrock AML 
sites are addressed by the industries that created the problems.
    The budget also includes a legislative proposal to institute a 
leasing process under the Mineral Leasing Act of 1920 for certain 
minerals (gold, silver, lead, zinc, copper, uranium, and molybdenum) 
currently covered by the General Mining Law of 1872. After enactment, 
mining for these metals on Federal lands would be governed by a leasing 
process and subject to annual rental payments and a royalty of not less 
than five percent of gross proceeds. Half of the royalty receipts would 
be distributed to the states in which the leases are located and the 
remaining half would be deposited in the Treasury. Pre-existing mining 
claims would be exempt from the change to a leasing system, but would 
be subject to increases in the annual maintenance fees under the 
General Mining Law of 1872. However, holders of pre-existing mining 
claims for these minerals could voluntarily convert their claims to 
leases. The Office of Natural Resources Revenue in the Department of 
the Interior will collect, account for, and disburse the hardrock 
royalty receipts.
Grazing Administrative Processing Fee
    The Budget includes proposed appropriations bill language 
authorizing a three-year pilot project to allow BLM to recover some of 
the costs of issuing grazing permits/leases on BLM lands. BLM would 
charge a fee of $1 per animal unit month, which would be collected 
along with current grazing fees. The budget estimates the fee will 
generate $6.5 million in 2013, and that it will assist the BLM in 
processing pending applications for grazing permit renewals. During the 
period of the pilot, BLM would work through the process of promulgating 
regulations for the continuation of the grazing administrative fee as a 
cost recovery fee after the pilot expires.
Reductions
    The BLM's FY 2013 budget proposal reflects many difficult choices 
in order to support priority initiatives and needs. The following are 
among the program reductions in the proposed budget:
        <bullet>  Rangeland Management Program--A $15.8 million 
        decrease in funding is proposed to be partially offset by a 3-
        year pilot program to recover some of the costs of issuing 
        grazing permits/leases permit and lease renewals through a $1 
        per animal unit month administrative processing fee levied upon 
        grazing permittees.
        <bullet>  Alaska Land Conveyance Program--A reduction of $12.4 
        million is proposed in an effort to reevaluate and streamline 
        the Alaska land conveyance process. Interim or final conveyance 
        is complete for approximately 96 percent of the original 150 
        million acres, and the BLM continues to explore opportunities 
        to further streamline the program and to focus applicable 
        resources on completing the final transfers.
        <bullet>  Public Domain Forestry--A general program decrease of 
        $3.3 million would reduce lower-priority activities and an 
        additional reduction of $150,000 is proposed for healthy 
        landscapes restoration projects in lower priority public domain 
        forested areas.
        <bullet>  O&C Reforestation--A general program decrease of $1.2 
        million would reduce lower priority forest vegetation 
        inventories, reforestation treatments, stand maintenance and 
        improvement treatments, monitoring, and inventory for the 
        presence of noxious or invasive weed species. The reduction 
        would not affect the Secretary's Western Oregon Strategy for 
        forest management.
        <bullet>  Abandoned Mine Lands--In 2013, the BLM is requesting 
        a decrease of $2.0 million for its abandoned mine lands 
        program. The BLM will continue to fund the highest priority 
        sites, as determined through its ongoing ranking process. Red 
        Devil Mine reclamation activities remain a high priority.
Conclusion
    The BLM's Fiscal Year 2013 budget request provides funding for the 
bureau's highest priority initiatives, and reflects the need to make 
tough choices at a time when Federal spending must be restrained. Our 
public lands and resources play an important role in American lives, 
economies, and communities and include some of our Nation's greatest 
assets. Under this budget proposal, the BLM is targeting investments to 
advance the bureau's mission of protecting these lands for multiple 
uses, including recreation, conservation, and safe and responsible 
energy development.
    Thank you for the opportunity to present this testimony on the 
proposed FY 2013 BLM budget.
                                 ______
                                 
    Mr. Bishop. Thank you for being here.
    Mr. Jarvis?

              STATEMENT OF JON JARVIS, DIRECTOR, 
                     NATIONAL PARK SERVICE

    Mr. Jarvis. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to appear before you today to 
talk about the Fiscal 2013 budget request for the National Park 
Service. My full testimony is submitted for the record.
    We appreciate this committee's support for the work that we 
do as stewards of our nation's most cherished natural and 
cultural resources, and we look forward to working with you as 
the National Park Service prepares for our second century of 
stewardship beginning in 2016.
    National parks are best known for their incredible beauty 
and preservation of America's historical legacy, but they are 
also significant economic engines for local communities and our 
nation. They stimulate both spending and job creation.
    Today, I am pleased to announce the release of our new 
economic impact report that shows that visitor spending in 
national parks in 2010 generated more than $31 billion in sales 
and supported 258,000 jobs in the U.S. economy.
    This job generation extends beyond our own organization. We 
have recently hired Andrew Goodrich, a six year veteran of the 
United States Marine Corps and a wounded warrior, who comes to 
us through the Operation War Fighter Program.
    Andrew is assisting the National Park Service in developing 
a program designed to transition and hire more young returning 
veterans from the wars in Iraq and Afghanistan.
    The Fiscal 2013 budget supports continued stewardship of 
our nation's most cherished resources through the 
Administration's America's Great Outdoors initiative, through 
partnerships with states and others, AGO is a landmark 
investment and engaging people and expanding opportunities for 
recreation and for conservation of our nation's natural and 
cultural heritage.
    The NPS will continue to carry on its stewardship of these 
resources and to provide enriching experiences and enjoyment 
for all visitors.
    In addition, NPS has begun a strategic approach to prepare 
for our centennial. Our initiative is called ``A Call to 
Action,'' and is a re-commitment to the exemplary stewardship 
and public enjoyment of our national parks for our first 100 
years.
    It calls upon our employees and partners to commit to 
specific actions that will advance the service toward a shared 
vision in 2016 and beyond.
    The Fiscal 2013 budget request contains limited strategic 
increases along with necessary selective reductions that were 
proposed only after serious and careful deliberation.
    For discretionary appropriations, there is a net decrease 
of $1 million below Fiscal 2012 to $2.6 billion. For mandatory 
appropriations, primarily the revenue from fees, there is an 
estimated increase of $3.5 million.
    The Fiscal 2013 budget proposes $2.3 billion for operations 
of the NPS, a net increase of $13.5 million.
    Within the total requested, there are specific increases, 
mostly fixed costs, and offsetting decreases, including a 
decrease of $21.6 million for operations at parks.
    That will undoubtedly have impact on the level of services 
provided to visitors and the level of operational maintenance 
at parks, but by ensuring flexibility in the implementation of 
reductions, park managers will be able to develop cost saving 
measures that minimize the impacts to our visitors.
    The request proposes $119 million for Federal land 
acquisition and state conservation grants, a net increase of 
$17.5 million above Fiscal 2012.
    Of that amount, $59.4 million is proposed for land 
acquisition projects and administration, including $9 million 
to provide grants to protect Civil War battlefield sites 
outside of the NPS.
    Land acquisition projects requested for national park units 
will result in over 27,100 acres of the highest priority lands 
within authorized park boundaries.
    Beginning in 2011, the Department instituted a coordinated 
process for prioritizing Federal land acquisition projects 
among the three departmental land management bureaus and the 
U.S. Forest Service.
    The cross bureau criteria emphasize opportunities to 
jointly conserve important large scale landscapes. The National 
Park Service has proposed two acquisitions in this 
collaborative landscape planning list.
    We also propose $60 million for state conservation grants 
and administration. $36.5 million for traditional state 
conservation grants to be apportioned in the states in 
accordance with a long-standing formula, and a $20 million 
competitive grant program that would target community parks, 
green spaces, landscape level conservation, and recreational 
waterways.
    The competitive grants component was developed to more 
specifically address the public's concern about the lack of 
open space in outdoor recreation areas.
    The national recreation preservation appropriation funds 
that support local and community efforts to preserve natural 
and cultural resources, these programs will be reduced by $7.8 
million below the Fiscal 2012 levels.
    The Historic Preservation Fund appropriation supports HPFs 
in states, territories and tribal lands, and it is proposed at 
the same level of Fiscal 2012 at $55.9 million.
    For conservation construction appropriation, the request 
proposes a funding level of $131 million, a reduction of $24 
million below Fiscal 2012. Within that amount, $52 million is 
proposed for line item construction, and there is a list of 
projects that are focused on critical life, health, safety and 
emergency projects.
    In formulating the 2013 budget, the NPS used a variety of 
tools to evaluate spending and to incorporate performance 
results into decision making.
    Given the far reaching responsibilities in the NPS, we must 
support the efforts of the entire Federal Government to regain 
a balanced budget while strategically focusing our efforts and 
resources on those functions critical to the protection of 
resources and visitors and employees, and on the experience at 
the core of every visit.
    This concludes my remarks, and I would be glad to take any 
questions.
    [The prepared statement of Mr. Jon Jarvis follows:]

              Statement of Jonathan B. Jarvis, Director, 
         National Park Service, U.S. Department of the Interior

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today at this hearing on the 2013 
President's budget request for the National Park Service (NPS).
Introduction
    The 2013 President's budget request proposes total discretionary 
appropriations of $2.6 billion for the NPS. This is a net decrease of 
$1.0 million below 2012 enacted discretionary appropriations. The 
request fully funds $27.0 million in fixed costs and provides increases 
totaling $39.2 million to fund essential programs and emerging 
operational needs. Reflecting the President's call for fiscal 
discipline and sustainability, the budget also includes $67.2 million 
in strategic reductions in park and program operations, construction, 
and heritage partnership programs. The request also includes $407.5 
million in mandatory appropriations, an estimated net increase of $3.5 
million. In total, the request includes total budget authority of $3.0 
billion, $2.5 million over 2012.
    The 2013 budget supports continued stewardship of the Nation's most 
cherished resources through the Administration's America's Great 
Outdoors initiative. Through partnerships with States and others, 
America's Great Outdoors is a landmark investment in engaging people in 
the outdoors and expanding opportunities for recreation and 
conservation of our Nation's natural and cultural heritage. The NPS 
will continue to carry on its stewardship of these resources of 
national significance and to provide enriching experiences and 
enjoyment for all visitors.
    Sustaining funding for park operations is a key component of this 
initiative. In these tough economic times we recognize the value the 
397 national parks provide all Americans--as places of introspection 
and recreation and as economic engines that create jobs and help our 
gateway communities thrive. Today, I am pleased to announce the release 
of a new economic impact report that shows visitor spending in national 
parks in 2010 generated more than $31 billion of sales which supported 
more than 258,000 jobs in the U.S. economy. The people and business 
owners near national parks have always known their economic value. In 
many communities, especially in small, rural communities, national 
parks are the clean, green fuel for the engine that drives the economy. 
The President's budget will ensure that national parks continue to 
serve the 281 million visitors who come every year to relax and 
recreate in America's great outdoors and learn about the people and 
places that make up America's story.
    In addition to this important initiative, the NPS has begun a 
strategic approach to prepare for our Centennial year in 2016. The 
National Park Service's ``A Call to Action'' is a recommitment to the 
exemplary stewardship and public enjoyment of our national parks, 
calling upon NPS employees and partners to commit to actions that 
advance the Service toward a shared vision for strengthening our parks 
through 2016 and into our second century.
Budget Summary
    The 2013 President's budget requests increases or maintains funding 
for programs that support the President's America's Great Outdoors 
initiative.
    The Operation of the National Park System, which is a key component 
to America's Great Outdoors and funds the operations of our 397 parks 
and related programs, is proposed to be funded at $2.3 billion, a $13.5 
million increase over 2012.
    A total of $119.4 million is requested for Land Acquisition and 
State Assistance, critical to achieving the goals inherent in the Land 
and Water Conservation Fund (LWCF) Act of 1965. This is an increase of 
$17.5 million over 2012. The budget includes $59.4 million for Federal 
land acquisition and administration, which would be used to acquire 
high-priority lands from willing sellers within national parks, and 
leverage other Federal resources, along with those of non-Federal 
partners, to achieve shared conservation outcome goals in high-priority 
landscapes. The budget also includes $60.0 million for the State 
Conservation Grants program and its administration, of which $20.0 
million would be targeted at a competitive matching grants program for 
States to carry out more strategic and larger-scale outdoor recreation 
and conservation projects.
    The budget sustains funding for the Rivers, Trails, and 
Conservation Assistance (RTCA) program at the 2012 level, which will 
help communities promote their own vision of livability, 
sustainability, and responsibility and assist partners in successfully 
utilizing the array of resources and tools available through Federal 
agencies and nongovernmental groups. RTCA helps promote the values of 
health, conservation, and enjoyment of our Nation's resources with a 
valuable return on investment through on-the-ground projects, such as 
river restoration and the creation of walking and biking trails. 
Funding is also sustained for American Battlefield Protection Program 
Assistance Grants, which assist partners with the preservation of non-
Federal historic battlefields at the local level, and for the Historic 
Preservation Fund, which supports Historic Preservation Offices in 
States, Territories, and tribal lands for the preservation of 
historically and culturally significant sites and other 
responsibilities defined under the National Historic Preservation Act.
Operation of the National Park System
    The 2013 budget proposes $2.3 billion for the Operation of the 
National Park System, an increase of $13.5 million from 2012. The 
request for operations funds increased fixed costs of $26.0 million and 
$12.2 million in program increases. These increases are offset with 
$24.8 million in strategic program reductions to park operations and 
servicewide programs.
    Of the program reductions, park base operations are reduced by 
$21.6 million and servicewide programs are reduced by $1.0 million. 
These reductions would be applied strategically to minimize the impact 
on the visitor experience and park resources. This reduction would have 
impacts on the level of services provided to visitors and the level of 
operational maintenance parks are able to achieve; however, by ensuring 
flexibility in the implementation of reductions, park managers would be 
able to develop cost saving measures that minimize the impact of these 
reductions on park visitors to ensure their safety and that of our 
employees and the protection of park resources. All specific reductions 
in budgetary resources and the areas of reduction would be determined 
based on a park's mission, goals, and operational realities.
    Strategic increases proposed include $2.0 million for U.S. Park 
Police operations. This includes $600,000 for the United States Park 
Police (USPP) to provide for additional patrols at national icons in 
Washington, D.C. and New York City and enhance USPP administrative 
support, and $1.4 million for USPP visitor and resource protection 
activities associated with the 2013 Presidential Inauguration. A 
separate increase of $1.2 million for National Capital area parks, 
particularly the National Mall, also would support visitor services and 
related activities associated with the Presidential Inauguration. Also 
included is a $610,000 increase for the Challenge Cost Share program, 
an important component of the America's Great Outdoors initiative which 
provides matching funds to qualified partners for projects that 
preserve and improve NPS natural, cultural, and recreational resources. 
An increase of $250,000 is also proposed to build on past and current 
Administration efforts to strengthen ocean and resource stewardship in 
the Nation's 74 ocean and Great Lakes parks.
Land Acquisition and State Assistance
    The 2013 budget proposes $119.4 million for Federal Land 
Acquisition and State Conservation Grants, an increase of $17.5 million 
from the 2012 enacted level. This includes $144,000 for increased fixed 
costs and $17.4 million in programmatic increases.
    Of the total amount, $59.4 million is proposed to be available for 
Federal land acquisition projects and administration, including $9.0 
million to provide grants to States and communities to preserve and 
protect threatened Civil War battlefield sites outside the national 
park system through American Battlefield Protection Program land 
acquisition grants. This amount also included $31.5 million for NPS 
Federal land acquisition projects, of which $20.2 million is for 
mission specific core land acquisition priority projects, and $11.3 
million is for land acquisition projects identified as part of an 
ongoing collaborative landscape planning process to achieve the highest 
priority shared conservation goals among the three departmental land 
management bureaus and the Department of Agriculture's Forest Service, 
per Congressional direction. The cross-bureau criteria emphasize 
opportunities to jointly conserve important large-scale landscapes, 
especially river and riparian areas, wildlife habitat, urban areas that 
provide needed recreational opportunities, and areas containing 
important cultural and historical assets. Additional criteria for these 
projects include the ability to leverage partner funds, the degree of 
involvement with other Interior bureaus for the project, and the 
urgency for project completion. The 2013 land acquisition project 
request totals over 27,100 acres of the highest priority acquisitions. 
As required by law, the proposed tracts are located within authorized 
park boundaries.
    The budget also proposes $60.0 million for State Conservation 
Grants and administration. Of this total, $36.5 million is proposed for 
traditional State Conservation Grants, to be apportioned to the States 
in accordance with the long-standing formula. An additional $20.0 
million would be allocated to States based on a competitive process 
targeting priority projects that support the America's Great Outdoors 
initiative. This component would promote projects that support both 
outdoor recreation and conservation in urban areas where access to open 
space is limited; protect, restore, and connect natural landscapes, 
including wildlife corridors; and provide access to rivers and 
waterways. The competitive grants component was developed to more 
specifically address the public's concern about the lack of open space 
and outdoor recreational areas in certain urban, rural, and other 
areas--an idea that was frequently conveyed during listening sessions 
for the America's Great Outdoors initiative.
National Recreation and Preservation
    The National Recreation and Preservation appropriation funds 
programs that support local and community efforts to preserve natural 
and cultural resources. The 2013 includes $52.1 million, reflecting 
increased fixed costs of $0.3 million and a programmatic reduction of 
$8.1 million for funding for National Heritage Areas (NHAs), for a 
total net change of $7.8 million below 2012. The proposed reduction 
supports the directive in the 2010 Interior Appropriations Act for the 
more established NHAs to work toward becoming more self-sufficient, yet 
still promotes the long-term sustainability of NHAs and the continued 
importance of Federal seed money for less mature areas.
    The budget sustains funding for the Rivers, Trails, and 
Conservation Assistance Program, which assists and empowers communities 
to protect their own special places and enhance local outdoor 
recreation opportunities; and American Battlefield Protection Program 
Assistance Grants, which provide grants to assist partners with the 
preservation of threatened historic battlefields not on NPS lands. Both 
programs are key components of the America's Great Outdoors initiative.
Historic Preservation Fund
    The Historic Preservation Fund appropriation supports Historic 
Preservation Offices in States, Territories, and tribal lands for the 
preservation of historically and culturally significant sites and to 
carry out other responsibilities under the National Historic 
Preservation Act. For 2013, the budget requests $55.9 million, with no 
change from 2012 levels. This provides $46.9 million for Grants-in-Aid 
to States and Territories, and nearly $9.0 million for Grants-in-Aid to 
Tribes.
Construction
    The budget proposes $131.2 million for Construction, reflecting 
increased fixed costs of $0.5 million and programmatic reductions of 
$24.7 million, for a total net change of $24.2 million below 2012 
levels.
    Line item construction is requested at $52.4 million, and includes 
only the highest priority construction projects to address critical 
life, health, safety, resource protection, and emergency needs, and 
does not propose funding any new facility construction. The request 
funds ten projects including continuation of ecosystem restoration at 
Olympic and Everglades National Parks and critical new repair projects 
at parks such as Yellowstone, Dry Tortugas, and Denali. Consistent with 
the Administration's Campaign to Cut Waste, the budget proposes funding 
for demolition and removal of unoccupied, excess structures at Blue 
Ridge Parkway.
Performance Integration
    In formulating the 2013 budget request, the NPS used a variety of 
tools to incorporate performance results and other information into the 
decision-making process. These tools include the Budget Cost Projection 
Module, the Business Planning Initiative, and the NPS Scorecard, as 
well as continued program evaluations. These tools are used to develop 
a more consistent approach to integrating budget and performance across 
the NPS, as well as to support further accountability for budget 
performance integration at all levels of the organization. We also 
continue to exercise strict controls on travel costs as we improve 
oversight over our limited budgetary resources. Given the far-reaching 
responsibilities of the NPS, we must support the efforts of the entire 
Federal government to regain a balanced budget while strategically 
focusing our efforts and resources on those functions critical to the 
protection of resources, visitors, and employees, and on the experience 
at the core of every visit.
    Mr. Chairman, this concludes my summary of the 2013 budget request 
for the National Park Service. We would be pleased to answer any 
questions you or the other members of the subcommittee may have.
                                 ______
                                 
    Mr. Bishop. Thank you, both of you, for your presentations 
here, your written testimony. Just for the record, at the end 
of this, if there are still questions that are required, we 
will send those to you in writing and we would ask for a prompt 
response.
    I am going to go last as far as the questions here, so I 
will start on our side by turning the time to Mr. Tipton if he 
has any concerns or questions for these gentlemen.
    Mr. Tipton. Thank you, Mr. Chairman. I would like to thank 
Mr. Jarvis and Director Abbey for being here.
    Mr. Jarvis, I would like to ask if you have been aware that 
the National Park Service proposed rules for a wilderness and 
back country management plan in regard to the Black Canyon of 
Gunnison. Are you familiar with that?
    Mr. Jarvis. Yes, sir. I am.
    Mr. Tipton. Were you aware that your agency admitted in 
that plan that the guides who provide these services would 
experience long-term reductions in revenues associated with 
those services provided in the Black Canyon and likely lose 
their jobs in the community?
    Mr. Jarvis. Well, I have just come up to speed on this 
issue, that there has been a proposal in the draft--it is not 
final, so there is no final decision here--there is a proposal 
by the Park to eliminate commercial guiding services within 
Black Canyon.
    I know it is very controversial within the climbing 
community. We are not at a final decision on that. I would be 
glad to come up and talk to your office about your concerns on 
that.
    Mr. Tipton. That is my home area, a largely rural area. We 
have been devastated by unemployment and the impact of losing 
even more jobs in our area when it comes to the Black Canyon.
    I would like to have just a little bit of the thought 
process. People have the freedom to go in and climb without a 
guide now. Why would you want to restrict the option for 
citizens to be able to have a professional guide?
    Mr. Jarvis. I really do not know the background on this 
issue and why the Park has concluded that this is in the draft. 
I do plan to investigate it and understand why they are making 
this proposal, and I would be glad to come up and talk to you 
about it once I find out.
    Mr. Tipton. I appreciate that. I know both of our Senators 
as well as myself have written you a letter, and we will look 
forward to your correspondence on that. We do want to work with 
you. We want to be able to protect our jobs in that particular 
area.
    Director Abbey, according to the BLM's February 13 press 
release, the Fiscal Year 2013 budget would reduce funding for 
the public domain forest management programs by $3.5 million.
    That is almost a 40 percent reduction in funding for forest 
management at a time when the agency is increasing spending on 
further land acquisition.
    What effects would this 40 percent reduction have on the 
numbers of forest management personnel, the volume of timber 
sold, number and size of stewardship contracts, number of 
firewood permits for personal use, and businesses and jobs in 
rural communities?
    Mr. Abbey. That is a good question, Congressman Tipton. As 
you know, any reduction does have adverse effects on the 
programs that we have been managing for a number of years and 
the public domain forestry program is no exception.
    There will be some reductions in forest relative to the 
number of personnel that would be lost as a result of that 
proposed reduction.
    We would intend to absorb those reductions through 
attrition, which means through retirements or other people 
leaving.
    We would continue to offer timber materials through 
stewardship contracting. We believe we could continue to 
maintain the status quo of the number of stewardship contracts 
that could be offered, working very closely with other partners 
to make those materials available.
    We would also continue to look toward some of the hazardous 
fuels reductions money that we have in the fire program to help 
us achieve some of our forestry objectives out there.
    Mr. Tipton. Given the bark beetle epidemic, and I am sure 
you are well aware of that, particularly in Colorado, this has 
devastated entire forests, is this really the time to be making 
cuts in those areas?
    Mr. Abbey. It would certainly be a priority for us to look 
at those types of areas for fuels reductions and to alleviate 
some of the risk associated with wild land fires.
    Mr. Tipton. Do you know exactly--not exactly--a guess of 
how many acres are affected on BLM land in Colorado by the bark 
beetle?
    Mr. Abbey. I do not know specifically, but we can certainly 
provide that information to you.
    Mr. Tipton. I think that is going to be very important. We 
have a tremendous concern in Colorado in terms of fire hazard. 
We have had light snow pack this year. It is not typically a 
question of if but when that catches fire, the impacts on our 
watersheds going through the areas, the devastation for all of 
our economies throughout the entire West will be greatly 
impacted.
    Have you evaluated the potential for increasing public 
domain timber sale programs in order to ramp up the response to 
the beetle kill?
    Mr. Abbey. Our priorities certainly would be based upon 
demand. As you probably have heard or assessed through your own 
reviews of our programs, the public domain forestry program 
provides little timber for commercial purposes.
    It provides a good source for firewood and other type of 
biofuels commodities, but it does not necessarily provide a lot 
to the commercial timber industry.
    Mr. Tipton. If I may, just a little bit--I guess we are 
done.
    Mr. Bishop. Yes, you are out of time. We will have other 
rounds. Mr. Grijalva?
    Mr. Grijalva. Thank you, Mr. Chairman.
    Mr. Jarvis, the National Heritage Areas, they are key 
partners for historic areas across this country. Communities 
continually come to Members of Congress as they begin to put 
their collaborative's together for designations.
    The shortfall from the budget you are recommending, and 
quite frankly, also the continued challenges with congressional 
re-authorizations on the issue, how do you see this program, 
very popular across the country, continuing in the future?
    Mr. Jarvis. Thank you for that question. I really 
appreciate it because I am a big fan of the Heritage Areas. I 
think they do an extraordinary job in leveraging what little 
Federal funding they do get to assist communities in preserving 
their lifestyle, promoting their heritage, and drawing 
visitors.
    I think it is a new concept, a relatively new concept, 
about two decades old, and some of them are facing the loss of 
funding.
    I believe there needs to be enabling legislation, organic 
legislation, for the Heritage Areas so they can have some long-
term sustainability rather than each year having to come in for 
an appropriation.
    We had to make hard budgetary decisions this year, in that 
the focus was on our base operations in the parks, and 
unfortunately, the Heritage Areas fall in a lower priority for 
us in terms of those hard decisions.
    Mr. Grijalva. Thank you. Director Abbey, the BLM estimates 
that 20 million people visited the conservation system in 2010. 
If funding were to be cut from this system, how would this 
affect visitorship and resource safety?
    Mr. Abbey. It would certainly adversely affect our 
abilities to provide the services that the public are expecting 
and demanding within the units of the national landscape and 
conservation system.
    Congressman Grijalva, as you know, we are asking for a 
slight increase for the management of the units within the 
national landscape conservation system, and I think they are 
deserving of that increase.
    The American public are rediscovering their public lands 
and they are rediscovering their lands for purposes other than 
just commodity extraction. They are using these lands for 
conservation and for recreation, and they are looking to make 
sure they continue to have access to their lands.
    Again, any reduction in any of our programs, as I mentioned 
to Congressman Tipton, would have adverse effects on the 
abilities for the Bureau of Land Management to continue to 
deliver the services that the public expects and are demanding 
and quite frankly deserve.
    Our hope is that Congress will look at our budgetary 
proposal and will provide us the funding that we are requesting 
in this particular program activity.
    Mr. Grijalva. For both of you gentlemen, can you both 
discuss your individual Land and Water Conservation Fund, land 
acquisition plans, and how you came about these priorities?
    Mr. Abbey. Jon, would you like for me to start?
    Mr. Jarvis. Go ahead.
    Mr. Abbey. Congressman Grijalva, again, there is quite a 
bit of competition because there are so many deserving 
projects, and again, our projects are based upon willing 
sellers.
    For the Bureau of Land Management, our acquisition projects 
occur within or adjacent to nationally designated areas, like 
our national monuments, national conservation areas, 
wilderness, national scenic trails, national historic trails, 
and wild and scenic rivers, as well as some of the special 
recreation management areas that we also manage.
    We do have criteria that we use to evaluate each of the 
proposals that we receive from our field offices. We rank those 
proposals based upon that established set of criteria that we 
have been using for a number of years.
    At the end of the day, based upon the rankings, we compete 
with other bureaus within the Department of the Interior, as 
well as the U.S. Forest Service, and the Department of 
Agriculture for the limited dollars that are being requested 
for land acquisitions.
    Mr. Jarvis. For Fiscal 2013 for the National Park Service, 
there are two components to our LWCF program. One is the 
Federal side and one is the state side.
    Very similar to Director Abbey, we have a set of criteria 
that we go through. Of course, with the National Park Service, 
we are limited on the Federal side of acquiring lands to only 
within authorized park boundaries, which Congress has granted 
us that authority.
    We focus on hardships or top priority acquisitions of 
willing sellers within park boundaries.
    We do have some grant making that goes outside, 
specifically to Civil War battlefield sites.
    On the state side, we are asking for something a little 
different this year than in the past, and that is the authority 
to use $20 million for a competitive grant program that would 
be transferred directly to the states and local governments for 
acquisition of open space, access to waterways, and urban parks 
in particular.
    It is a little bit different than in the past. The only 
significant increase that we are asking for over 2012 is on the 
state side of the program.
    Mr. Bishop. Thank you. Mr. Amodei?
    Mr. Amodei. Thank you, Mr. Chairman. Mr. Jarvis, we have 
not met. I just have one request. Your folks administer the 
Devils Hole pupfish area in my state.
    In a recent conversation with the State Engineer's Office--
and I do not know if this is true, if it is not, I look forward 
to talking to you about it, that is kind of the subject of the 
request, to meet with you later.
    The State Engineer's Office indicated that some of the 
folks in management there have been in the process of using the 
state water rights' process and its protest abilities to 
represent to people if they purchase three times the water that 
they need for their proposed use and dedicate two times what 
they purchased to the Park Service there, they will not protest 
their water rights' application.
    I want to stress I do not know if that is true, but I would 
appreciate the opportunity to interact with the appropriate 
person on your staff to ascertain whether that is or not, and 
if so, to discuss the issues related to that, and if it is not, 
it will be a short conversation, and I look forward to having 
it in your office, if that is acceptable.
    Mr. Jarvis. We will set that up. I do not know whether that 
is true.
    Mr. Amodei. I would not expect you would. Thank you very 
much.
    Good to see you, Bob. I want to thank you and your folks in 
Nevada for their reception of me. Amy Ludders has been great in 
the five-and-a-half months I have been there. I have been to 
all your district offices in the state. I really appreciate the 
professional welcome. We have had some great discussions on a 
lot of topics.
    I want to cover a couple of things if I could, Bob.
    Mr. Abbey. OK.
    Mr. Amodei. The per yard fee on mining proposed in the 
budget, tell me what I am missing there. When you are attaching 
a fee per yard, it sounds to me like an assault on surface 
mining.
    What did I miss there? The more dirt you move, the more it 
costs? It sounds like a surface miner's nightmare.
    Mr. Abbey. Well, it is not intended to be. Congressman, as 
you are well aware, being from Nevada, and with the number of 
abandoned mine sites located in Nevada, nationally, we do have 
an issue, a safety issue.
    We have identified some 37,000 abandoned mine sites with 
over 74,000 features, such as open entryways and piles of 
contaminated materials and other physical hazards.
    The whole purpose of the fee that we are proposing to 
assess existing mining operations would be to--I think it is 
like 14 cents per ton of materials that would be moved from the 
location, the mining operations.
    The intent is to use those fees that would be collected to 
reclaim the abandoned mines.
    Mr. Amodei. I get that. I appreciate that. As you are aware 
from your time in Nevada, you have a pretty good program in 
that state through the State Minerals Office and the Mining 
Association, which has gone out and done--I do not know how it 
compares to other states--some pretty good work.
    When I see a proposal that although there is a little bit 
of mention about coordination, it is like hey, if they have a 
good method there that is working, creating a Federal program 
to duplicate that, and I do not know if it duplicates it or 
works in conjunction, but I would appreciate the opportunity to 
maybe have a little more discourse on that.
    I want to move, if I could, to the sage-grouse stuff. I 
appreciate the Secretary's presentation earlier and yours.
    When I look at $15 million and I talk about--I know these 
things are necessary. Science, mapping, technology, regulatory 
mechanisms, managing/monitoring information to develop 
management strategies.
    In discussions with the Fish and Wildlife Service, all of 
this is for agriculture, mining, OHV, all the things, the major 
danger to the sage-grouse is fire.
    When I look at the fire budget and I look at this and I see 
no fuels--maybe I missed it. Maybe it is just buried in the 
nomenclatures. There is nothing in here to say we are going to 
manage--we are going to do fuels management around those areas.
    We are going to do something that is aggressive--unless I 
have been talking to the wrong people--when you talk to your 
folks in the state, when you talk to the State Director of Fish 
and Wildlife, we are burning the habitat up.
    I am not saying that is anybody's fault. The history is 
clearly the threat to the habitat is wild land fire. I look at 
this and I do not see a lot of wild land fire stuff in here.
    Have I missed it? Tell me what I have missed or how do we--
I see the challenge for the sage-grouse, at least part of it, 
we can regulate all the manmade activities, but wild land fires 
is what burned that habitat up, and I see a very light stroke 
on that in terms of what is being proposed in this budget.
    Mr. Abbey. You have missed it a little bit, Congressman. 
You are absolutely correct. The biggest threat to sage-grouse 
is habitat fragmentation. The biggest threat to habitat 
fragmentation is wild land fire, especially in the Great Basin 
states.
    As we look toward to the actions that we are taking on the 
ground, we are not only going through the process of amending 
68 land use plans based upon input from the state gaming and 
fish agencies as well as other public land stakeholders and 
members of the public, to help us identify best management 
practices across the full spectrum of multiple use management 
and incorporate those into our land use plans, so that we can 
protect those core sage-grouse habitats similar to what the 
State of Wyoming has already done at the state level.
    As it relates to wild fire, we are not only highlighting 
and prioritizing fuels reduction, but we are also highlighting 
and prioritizing suppression activities around those core 
habitat areas.
    By that, I mean during the fire season, we will be pre-
positioning fire crews near those core areas so that if a fire 
does break out, we can respond immediately and try to control 
the spread of that fire.
    Mr. Bishop. OK, Mr Abbey. Mr. Holt?
    Dr. Holt. Thank you, Mr. Chairman. Thank you, Mr. Abbey and 
Mr. Jarvis for all the important work that your agencies do.
    Let me follow on the question of Mr. Grijalva about the 
Land and Water Conservation Fund.
    I cannot emphasize too strongly how important this is for 
the irreplaceable lands in New Jersey and across the nation. 
You know how hard I have worked to try to find ways to stop 
this siphoning off of the LWCF's $900 million in annual 
revenues.
    How does this year's budget fit into the Department's and 
the President's declared goal of fully funding LWCF by 2014? It 
sounds to me like this is----
    Mr. Jarvis. An incremental step toward that, I would say. 
Recognizing the economic situation of the country and that full 
funding of the Land and Water Conservation Fund in this 
economic decline was probably unreasonable or not achievable.
    What we have done is looked to work together, the Bureau of 
Land Management, Fish and Wildlife Service, the Park Service 
and the Forest Service to figure out how we can leverage our 
LWCF investments and create the best effect both for the 
American public in terms of recreation as well as conservation 
on the ground.
    That has been our focus.
    Dr. Holt. Mr. Abbey, I wanted to turn to the Mining Act and 
R.S. 2477. I do not need to go through how we got here and how 
grandfathered road use is determined.
    I wanted to point to the real challenges, legal challenges, 
that are being mounted now. I would like to know whether the 
Bureau intends to vigorously defend against this attack.
    Anti-wilderness folks have said roads are the anecdote to 
wilderness, as if wilderness is something to be stamped out. 
Believe me, roads are a pretty effective way of degrading 
wilderness.
    Will the Bureau vigorously defend preservation of the 
wilderness areas?
    Mr. Abbey. We intend to do so. As you know, there have been 
several lawsuits that have been filed, primarily in the State 
of Utah, regarding R.S. 2477 roads.
    At the same time, we are working very closely with the 
State of Utah and with county governments in that particular 
state, as well as other counties across the Western United 
States to try to provide for legitimate roads that exist, to 
make sure the public has access to the areas they want access 
to.
    Certainly, where we have proposals on trails within 
designated wilderness areas, we have already declared those are 
not roads or they would never have been designated as 
wilderness study areas or designated as wilderness.
    As we continue to defend in a court of law our position, we 
are also seeking alternative approaches to authorize under the 
Federal Land Policy and Management Act right-of-ways that would 
provide for that type of access to the areas that the public 
would like to have access to, and to accommodate 
transportation----
    Dr. Holt. Let me just say, please be vigorous. Mr. Jarvis, 
there are a number of really important Civil War battlefield 
sites that have been preserved. It is very important to our 
heritage.
    If we provide you the authorization, can we expect the same 
kind of vigorous attention to battlefields of the Revolution 
and the War of 1812?
    Mr. Jarvis. Yes, sir. The biggest threat to all of our 
battlefields is that they get developed and you lose that sense 
of place. Obviously, since we are right now in the middle of 
the Sesquicentennial of the Civil War, we had a lot of focus on 
that, but the War of 1812 recognition is coming up very quickly 
as well, and we have had some focus on that and are putting 
some specific funding into it, but we would appreciate your 
support for the recognition of these very important historical 
components.
    Dr. Holt. Let me also just add a comment to Mr. Grijalva's 
question. I do think the reduction in the Heritage Areas' 
program funding is a serious problem. These are really 
shoestring operations in so many cases and so valuable, the 
Crossroads of the American Revolution in New Jersey is just 
getting on its feet. It is terribly important, I think, for our 
heritage, our history, our education, not to mention local 
tourism.
    I hope we can find a way to restore that funding and have a 
commitment of vigorous defense of those programs.
    Thank you, Mr. Chairman.
    Mr. Bishop. Thank you, Mr. Holt. Maybe if you can help me 
get my access, I can help you get your battlefields.
    Dr. Holt. Noted.
    Mr. Bishop. Mr. Rivera?
    Mr. Rivera. Thank you, Mr. Chairman, and thank you 
gentlemen for being here today.
    I am going to start with Mr. Abbey. I recently read in 
Florida Trend Magazine that the Department was claiming 
ownership of uninhabited Wisteria Island in Key West Harbor.
    The article stated that the Monroe County Property 
Appraisers' records say a private company has owned the Island 
since 1967.
    I have also been informed that your agency is the one that 
has put in this claim. If this is accurate, I would like to 
request at least a briefing by your staff either here in 
Washington or in South Florida, to better familiarize myself 
with that matter, if that would be all right.
    Mr. Abbey. You bet. Let me just say initial adjudication of 
the records performed by our employees in the Eastern State's 
Office located in Springfield, Virginia indicated there were 
some title issues down there.
    I have yet to be briefed myself. I have asked them to 
provide me background and what facts they have to come to that 
type of conclusion.
    We would be happy to provide that briefing to you after I 
receive it.
    Mr. Rivera. I appreciate that very much.
    Also, almost four months ago, I asked that you and 
Secretary Salazar provide a list of all foreign government 
owned energy companies, foreign government owned energy 
companies incorporated in the United States, that hold leases 
on Federal lands and the OCS.
    I am still waiting for that list. I think the fact that it 
has taken this long to produce the list highlights that we have 
a problem of easily identifying what foreign governments are 
operating on our public lands, which could be a matter of 
national security.
    Again, I would reiterate I would like to have that list as 
soon as possible.
    Mr. Abbey. We will get that to you.
    Mr. Rivera. Thank you. Mr. Jarvis, with respect to 
Everglades restoration, I know it is important to you, and as 
you know, it is important to Florida and to the United States.
    I want to thank you for the leadership that you provided on 
this issue.
    On the image you see on the screen, this is a part of my 
congressional district. The orange line is the boundary of 
Everglades National Park. The Tamiami Trail Bridge, the green 
in the image, which is expected to be finished soon, and the 
other Public Works being built to restore more natural flows to 
the Everglades, need a 7.5 mile swath of Florida Power and 
Light or FPL owned land that runs through the middle of 
Everglades National Park, and that would be the pink line that 
you see there.
    The FPL swath is about as wide as a football field side 
line to side line.
    The Park Service and Congress both know this, and in 2009 
Congress passed bipartisan legislation that enabled a land 
exchange between the Park and Florida Power and Light.
    Florida Power and Light would receive those lands where the 
blue line touches the orange on the eastern edge of the Park, 
and the net gain to the Park was an additional 60 acres of 
land, and FPL would have a corridor to put power lines outside 
of that Park.
    I am sure you share my concern about all the taxpayer 
dollars spent, and it simply is not working because of a hold 
up with this land exchange.
    The schedule the Park Service itself publicly posted for 
the project shows the agency publishing a draft environmental 
impact study or EIS last month. That did not happen.
    I am wondering when we can expect that.
    Mr. Jarvis. The team in Florida is working very diligently 
to get this done. We were briefed on it just in the last week 
or so that to facilitate the exchange and to move the power 
line corridor to the eastern boundary, there will be some 
environmental concerns. However, I think they can be identified 
and managed and, certainly, we need the current FPL corridor in 
order to allow overflow easements when the water begins to flow 
under the Tamiami Bridge Project.
    We see it as an essential component, and we are working 
very, very hard on it.
    I do not know off the top of my head when we will get it to 
you, but I will get that right to you.
    Mr. Rivera. Thank you very much. I hope you will expedite 
that.
    Speaking of the project, is there any funding requested in 
the President's Fiscal Year 2013 budget for bridging or related 
work on the Tamiami Trail?
    Mr. Jarvis. There is $8 million requested in the Fiscal 
2013 in our construction program, but that is inadequate to do 
the next phase of the Tamiami Trail.
    Mr. Rivera. $8 million?
    Mr. Jarvis. Yes.
    Mr. Rivera. Thank you very much, Mr. Chairman.
    Mr. Bishop. Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you all for 
being here.
    Director Jarvis, I wanted to ask you a couple of questions. 
You mentioned a moment ago the bicentennial celebration that is 
coming up on the War of 1812, and it will not surprise you to 
learn I am very focused on that myself right now.
    The first question relates to the Star Spangled Banner 
National Historic Trail. I know the Park Service is currently 
reviewing a comprehensive management plan for that Trail.
    I wanted to know if you are confident that this review will 
happen with all deliberate speed so that the plan is done and 
the Trail is ready to go and be accessed as we head into the 
bicentennial celebration?
    You are going to have thousands of visitors, obviously, 
coming through the area and the region who are going to want to 
follow along the points of that Trail.
    Mr. Jarvis. Yes, sir. I just made a point to travel over to 
the office on the Chesapeake Bay where we manage both the 
Chesapeake, Captain John Smith, and the Star Spangled Banner 
Trail activities, as well as conversations with the Northeast 
Region.
    I do believe it is on track. I think it is very exciting. I 
know the communities along the route are looking very much 
forward to this, so I think it is coming along quite well.
    We just hired a new coordinator for the War of 1812 
celebrations as well.
    Mr. Sarbanes. Thank you. I will apologize now for being a 
pest in the coming months on this, as we kind of keep checking 
in with you to make sure that is staying on track.
    The second thing, obviously, Fort McHenry is going to be 
really at the center of this celebration over the next two 
years. I know the budget is largely flat for the foreseeable 
future.
    I am concerned that there is going to be this huge influx 
of visitors. We expect this to happen not just from within the 
region, but from across the country and even international 
visitors coming, as we celebrate this bicentennial event.
    I wondered if you could speak to whether the Park Service 
is kind of leaning into the bicentennial and thinking about how 
maybe some additional resources can be marshaled toward Fort 
McHenry to make sure the Fort Visitor Center and everything 
that goes with it is well positioned to handle this significant 
increase in interest and tourism?
    Mr. Jarvis. We appreciate your attention to this. I think 
the Park will be ready. We have identified about $750,000 out 
of recreation 20 percent fee funds and repair/rehab to complete 
the exhibits at the Visitors Center.
    We are ensuring that the staff is ready for the 
celebration.
    As I mentioned, we put together a team on this, and 
Gavitsky, who you know well, has been leading that for the 
Northeast Region. We have just again hired a new coordinator. I 
think things are coming together quite well, and I think the 
Park will be ready and looking spiffy.
    Mr. Sarbanes. Great. We look forward to working with you on 
this as it comes to past. Thank you very much. I yield back.
    Mr. Bishop. Mr. Pallone, do you have questions?
    Mr. Pallone. Thank you, Mr. Chairman. Thank you, Mr. 
Grijalva, also for letting me join you.
    I just wanted to say my question is to Director Jarvis. I 
know that in difficult economic times, families all over the 
Nation are relying on our national parks for family vacations, 
daily recreation, and education.
    I think it is important that these natural wonders be 
accessible to everyone.
    In my district, we have Sandy Hook, part of the Gateway 
National Recreation area, and one of the important attractions 
that the public has access to at Sandy Hook is the beaches.
    While many of the surrounding beaches remain prohibitively 
expensive for families, Sandy Hook remains an affordable 
location.
    However, the National Park Service has proposed raising the 
fees 100 percent for vehicles going to the beach. I think this 
is going to be put access to Sandy Hook's beaches out of reach 
for many families struggling during these difficult economic 
times. I just do not want that to happen.
    You know, Director Jarvis, I have had dialogue with you 
about these proposed fee increases at Sandy Hook, and you have 
been willing to keep an open mind.
    You also know, I think, that I am very strongly opposed to 
it. We are talking daily now for a vehicle is $10. It goes to 
$20 for two days, but a lot of people just come for the day. 
That is double.
    Season pass goes from $50 per vehicle to $100 per vehicle, 
over sized from $25 to $50.
    My question is have you made any determination as to 
whether these fee increases at Sandy Hook will be implemented, 
and if not, when can we expect that decision?
    Mr. Jarvis. We are still in continuous dialogue with the 
staff in the Northeast Region about these fee proposed 
increases. They do have to come in for approval here in 
Washington. For any of the fee increases we are taking them 
case by case. They have to make their case that it is not 
deterring the public, and it is reasonable and justified, and 
particularly in the amount of the increase, as you indicated. 
This is a doubling of the existing fees.
    We are still in the process. We do not have a final 
decision.
    Mr. Pallone. You do not have a time line at this point?
    Mr. Jarvis. No, sir.
    Mr. Pallone. As I said, I know I am being repetitive and 
you have heard me before, but it is tough times. Some of the 
people at the Park Service--we had a hearing, and I appreciated 
the fact that you had a hearing--came in and said well, this is 
comparable to area beaches.
    The problem is a lot of people cannot afford the area 
beaches. This was the cheap alternative for a day.
    I hope this notion that because other beaches are more 
expensive that means we should be more expensive does not 
influence your opinion too much.
    My understanding also is that part of the reason that the 
Service is proposing a fee increase at Sandy Hook is because 
they have some difficulty funding operations and maintenance at 
the Park.
    Where in the Park Service budget could Congress ensure that 
adequate funds are included so that the financial burden is not 
put on the middle class?
    In other words, can we do something so that we can avoid 
the fee increases by providing more money for certain things, 
if possible?
    Mr. Jarvis. The operations of any park come directly from 
the Federal appropriations process. The interesting thing about 
the Federal budget for the National Park Service is that every 
park in the system is identified for its base operations. You 
would be able to find Gateway and Golden Gate, any park in the 
system exactly.
    As we have proposed for Fiscal 2013, there is actually a 
reduction of about 1.5 percent to the operating budgets of the 
park system across the system, and that will impact their 
ability to do maintenance, to provide basic services.
    Increasingly, we have to rely on our fee program to provide 
basic services, particularly on the maintenance side of the 
program.
    Mr. Pallone. Let me just say that I want to mention Fort 
Hancock. The buildings that make up Fort Hancock require a lot 
of investment. There was a private developer who basically was 
a failure. I do not want to see that repeated.
    I would like to see some funds dedicated for historic 
preservation at Fort Hancock, and that be prioritized, because 
then the need for additional private developers or private 
development is less so.
    I am just hoping I can get an assurance from you that we 
will work together to try to get some of these buildings 
preserved through the Federal Government if possible.
    Mr. Jarvis. The key to Fort Hancock, I think, as we found 
in many of these things, is to find the right partner and then 
couple our investment in the infrastructure with their 
investment in creating some sort of viable opportunity there.
    If you time that perfectly, I think you can have a success. 
That is what we are looking for.
    Mr. Pallone. Mr. Chairman, I know my time has expired. I 
think that we can get some individual non-profits and other 
groups that would come there and fix up some of the buildings, 
but we are going to need some Federal help as well.
    Thank you, Mr. Chairman.
    Mr. Bishop. That is OK. Everyone has gone over so far, so 
you can complete the circle.
    Let me ask a couple of questions. May I start with you, Mr. 
Abbey. Let's go back to the sage-grouse that Mr. Amodei 
started.
    Obviously, the Center for Biological Diversity and Wild 
Earth Guardians recently made a settlement agreement with the 
Fish and Wildlife Service.
    Were you personally consulted about the terms of that 
settlement prior to the agreement?
    Mr. Abbey. I was not.
    Mr. Bishop. Was anyone from BLM present or consulted prior 
to the terms of that agreement?
    Mr. Abbey. I am not aware of anyone from BLM participating 
in that negotiation. I do know there is information that we 
have shared relative to the number of acres that we manage that 
are considered to be sage-grouse habitat.
    Mr. Bishop. Do you have personally within BLM any 
preliminary economic analysis or estimate of the cost or the 
impact of this settlement?
    Mr. Abbey. I do not.
    Mr. Bishop. Do you have any information as to what counties 
may lose revenue with the impact of this settlement?
    Mr. Abbey. I do not.
    Mr. Bishop. What is the statutory authority for saying that 
grouse creek surface habitat trumps legal mineral rights in 
these areas?
    Mr. Abbey. First, the species is not listed, as you are 
well aware.
    Mr. Bishop. One of the concepts was that the surface rights 
will trump the legal mineral rights. Is there statutory 
authority for that?
    Mr. Abbey. I am not familiar with what you are quoting, 
what document you are referencing, Congressman.
    Mr. Bishop. Is there statutory authority for saying the 
surface rights will trump mineral rights?
    Mr. Abbey. No.
    Mr. Bishop. OK. Is there any authority that says surface 
rights would trump mineral rights?
    Mr. Abbey. No, what we would try to do is mitigate any 
impacts to the core sage-grouse habitats through our actions.
    Mr. Bishop. We do not have any analysis of that yet?
    Mr. Abbey. We would do the analysis through NEPA.
    Mr. Bishop. OK. If and when that actually happens, if you 
would share that, I would appreciate it.
    Mr. Abbey. You bet.
    Mr. Bishop. I do want to say one thing. I feel sorry for 
you as far as the wild horse and burro issue.
    Mr. Abbey. Thank you.
    [Laughter.]
    Mr. Bishop. What Congress has done in all sincerity is 
really hamper you and tie your hands in many areas. How are you 
going to be able to reduce the herd with an inadequate habitat 
that is available for the numbers that are there?
    Mr. Abbey. It is going to be a challenge. That is the 
reason why we contracted out with the National Academy of 
Sciences to try to help us use the best available information 
in science that is out there so that we can incorporate 
different actions because the status quo is not working.
    Mr. Bishop. I wish you well on that. I hope that works well 
for you.
    Mr. Jarvis, can I go through a couple of quick questions 
with you at the same time? Can you give me the status on the 
upkeep of the work at the Jimmy Carter Historic Site? Is the 
Park Service still mowing the lawns and doing the pool service?
    Mr. Jarvis. I cannot give you an update. I was not briefed 
on that, so I do not know. I will find out for you.
    Mr. Bishop. That is one of the questions. What about the 
Presidio Trust that was supposed to be self sufficient? Are 
they going to be able to meet the 2012 deadline for being self 
sufficient?
    Mr. Jarvis. I think they are.
    Mr. Bishop. Has any Heritage Area, if we can hit on that 
for a second, shown the ability to become self sufficient?
    Mr. Jarvis. We have done some economic evaluations, reviews 
of them, and I think some of them actually are economically 
self sufficient. Yes, sir.
    Mr. Bishop. Currently?
    Mr. Jarvis. Yes.
    Mr. Bishop. Can you give me a list of those that are?
    Mr. Jarvis. I can get that to you.
    Mr. Bishop. Thank you. You are budgeting $9 million for 
Heritage Areas. How many seasonable employees would that hire?
    Mr. Jarvis. I am not very good at that kind of math. A 
seasonable employee for the National Park Service, about 800.
    Mr. Bishop. 800? Thank you.
    The Coburn Amendment over in the Senate, Mr. Jarvis, still 
implemented with regards to the Second Amendment rights on Park 
Service land. Have you seen any increase in gun violence or 
poaching attributable to that law change?
    Mr. Jarvis. No, sir. We have not.
    Mr. Bishop. Thank you. Mr. Abbey, let me ask one question 
for Mr. Tipton. He wanted to ask if the BLM has done any cost/
benefit analysis on grazing. Have you placed any value on the 
contribution grazing makes to management of these lands? 
Especially as we are talking about sage-grouse with wild fire.
    Mr. Abbey. We have. We went back last year because of the 
criticism that was provided to us or presented to us by the 
industry itself regarding what they perceived to be a slight in 
our economic analysis.
    We went back based upon the information they were able to 
provide us, which we validated, and changed those figures.
    Mr. Bishop. Great. I appreciate that. I have questions 
about the grazing but my time is about up, and I am going to 
beat the clock and yield back. I will wait for the next round.
    Mr. Grijalva, do you have more questions?
    Mr. Grijalva. Thank you, Mr. Chairman. Just a couple. Mr. 
Abbey, the point that Mr. Holt brought up about the claims and 
R.S. 2477, let me ask specifically about law enforcement in the 
areas where these claims have been placed.
    They have been thrust into the spotlight as a consequence 
of those claims, so are you seeing a greater need for 
protection, a greater need for rangers' presence as a 
consequence of the whole discussion about the claims?
    Mr. Abbey. No, we really are not, Congressman. Again, our 
law enforcement folks within the Bureau of Land Management work 
very well for the most part with local law enforcement 
officials.
    We are not seeing really any increase in incidents as a 
result of some of the contentious issues related to R.S. 2477 
claims.
    As I mentioned earlier in my testimony, we are working very 
closely with county governments to resolve some of these 
issues.
    Our hope is that they would accept right-of-ways that would 
be issued under the authority of the Federal Land Policy and 
Management Act, and avoid pursuing litigation, asserting R.S. 
2477 jurisdiction.
    We are not totally successful along those lines.
    Mr. Grijalva. Thank you. For both of you gentlemen, how 
will the re-authorization of the Federal Land Transaction 
Facilitation Act help your particular agencies?
    Mr. Abbey. Let me take that one, Jon. First, we really are 
big proponents of seeing that Act re-introduced and passed.
    As you know, Congressman Grijalva, it expired in July of 
2011. What this Act has allowed us to do is under the decisions 
that we reached through a very public land use planning process 
and where we have identified public lands for disposal, we have 
been able to dispose of those public lands and use the revenues 
that are generated from the sales of those lands for the 
acquisitions of environmentally sensitive lands for not only 
the Bureau of Land Management but the U.S. Forest Service, Park 
Service, Fish and Wildlife Service.
    Prior to the expiration of the Act in July, we had sold 
27,000 acres of public lands and acquired 18,000 acres of 
remarkable landscapes.
    Mr. Grijalva. Sir?
    Mr. Jarvis. I would agree. The Bureau of Land Management 
and Director Abbey have been excellent to work with in the 
collaborative approach to application of the FLTFA funds to 
acquire critically sensitive lands, and the Park Service has 
benefitted from that.
    Mr. Grijalva. Thank you. The Archaeological Resources 
Protection Act of 1979 is significant for people that 
appreciate history and appreciate the preservation of that 
history.
    Have the violations of this Act increased with the economic 
hardships that we are seeing out there, and what is being done 
to protect some of those? There are many in my district, many 
in Arizona, of these very important archeological sites.
    Mr. Jarvis. I think archeological resources continues to be 
a concern on all public lands, national parks, and BLM lands as 
well. We work collaboratively with state enforcement as well to 
try to protect these sites.
    These are big areas, difficult, remote in many cases. I 
cannot say that I have seen a growth in the activity, but 
certainly it continues to be a law enforcement concern.
    Mr. Grijalva. OK. Thank you. I yield back, Mr. Chairman.
    Mr. Bishop. Thank you. Mr. Amodei? I will note you also had 
a surplus from the last time we had a hearing as far as your 
time is concerned.
    Mr. Amodei. Thank you for your accounting courtesies, Mr. 
Chairman.
    Bob, you had referenced this plan about the sage-grouse 
stuff, so I would appreciate a copy of that, which I am 
assuming shows the areas, reduces fuels around those, talks 
about assets pre-positioned.
    Is there an element of that plan that also talks about 
sheep grass and PJ, or is that a different document, or is that 
to be generated? How does that work?
    Mr. Abbey. That type of information will be generated and 
included as part of our land use plan amendments.
    Invasive species in the Great Basin, especially sheep 
grass, destroys core sage-grouse habitats, and it continues to 
be a problem and it becomes an increasing problem every time we 
have large scale fires.
    Mr. Amodei. I guess a pretty important ingredient in terms 
of fire management, obviously.
    Mr. Abbey. Definitely.
    Mr. Amodei. That would be great. The other things already 
exist in the plan or did I misunderstand you?
    Mr. Abbey. As far as our fire suppression tactics and 
strategies, that already exists. We have incorporated that into 
our annual fire plans, where we are giving priorities to 
protecting those types of core areas.
    Mr. Amodei. That exists at the state level or the district 
level?
    Mr. Abbey. It would exist at the state level.
    Mr. Amodei. I will get that from Amy. Thank you.
    Also, I was wondering if there was an analysis on the 
relation of material move to cost to remediate abandoned sites 
in Nevada. You have picked this management technique.
    Knowing the permitting process that people go through with 
your agency, with the state DEP, how many of those areas are in 
areas that were previously disturbed or formerly abandoned 
because you go to where the mineral is?
    I would like to see if this has some sort of direct 
relation to where those sites are, where permits are being 
issued, and what the mission is, if you will, in Nevada versus 
the number of tons that are expected to be moved, if that sort 
of analysis exists, please.
    Mr. Abbey. We have used USGS information to identify the 
volumes, the estimated volumes of materials that are used.
    As you may know, a similar program exists in the Coal 
Program, where coal mines are actually paying a fee to the 
Office of Surface Management to reclaim abandoned coal mines.
    What we are trying to propose and implement would be a 
program that is currently in place for coal with hard rock 
mines.
    Mr. Amodei. OK. If there is a connection there, that is 
fine. I would just like to see the data that backs it up.
    In coming up with this, did you coordinate with Minerals in 
DEP in Nevada, with the state folks? Were folks in that 
district consulted? Is this something that came strictly from 
the Federal level?
    Mr. Abbey. This is the same proposal that we included in 
last year's budget request, so it is not new. It is the second 
year in a row that we have requested this.
    Let me just say, Congressman, any fee that would be 
collected under this proposal would not only be available to 
clean up abandoned mines on Federally managed lands, but also 
private lands and state managed lands.
    Mr. Amodei. I get that. The answer to my question of was it 
coordinated with the state folks who are already doing this in 
Nevada is?
    Mr. Abbey. I did not reach out to them, no.
    Mr. Amodei. OK. Thank you. Finally, on the grazing fee 
increase, we are cutting $15 million. We are imposing a fee 
that generates half that. What my take-away from that in terms 
of--by the way, we are going to increase service in that area.
    It looks to me like a net reduction of 50 percent, and that 
is only because you have a fee increase.
    If you could, and because Mr. Bishop adds and subtracts 
very well, just give me the short version, please. I would like 
to do one more.
    Mr. Abbey. The issue with the grazing fee and one of the 
rationales behind our proposal is that the Bureau of Land 
Management spends around $38 million each year evaluating 
rangeland health and monitoring permits and the uses that are 
occurring under the permits.
    We collected around $12.4 million in revenue. That revenue 
is then distributed 50 percent to state and local governments 
with 50 percent going into the Range Improvement Plan or Range 
Improvement Fund.
    We really are not offsetting the administrative costs of 
administering grazing permits on these public lands.
    There are benefits. There are benefits to grazing on public 
lands. We recognize those benefits.
    Mr. Amodei. If I could, Bob, I am not trying to cut you 
off, but I will get with you to take that off line. Final one.
    Gross proceeds, tax, minerals extractions on gross proceeds 
instead of net. Why gross? What was the deal, not to take into 
account cost of production?
    Mr. Abbey. Well, it was rationale that we have used and it 
was one of the proposals that had been considered both by the 
Bureau of Land Management and others within the Department of 
the Interior and the Office of Management and Budget.
    I think it has a lot to do with it is an easier way to 
account for the revenue.
    Mr. Amodei. Thank you.
    Mr. Bishop. Let me follow up, start with the grazing fees 
again. If indeed this $1 is to assist in recouping actual 
costs, why is it not per permit or application? Why is it per 
AUM?
    Mr. Abbey. Let me begin by explaining what is the potential 
impact of a grazing permittee. Congressman, as you may know, 83 
percent of the permittees on public lands graze 1,000 AUMs or 
less.
    The actual impact to a permittee at the end of the year is 
probably going to be $1,000 or less on their permit.
    Mr. Bishop. OK. Let's go back to the question. If this is 
administrative costs, why is it not per permit instead of per 
AUM?
    Mr. Abbey. We could issue--we could do per permit. It would 
not be $1 per permit. It would be much more.
    Mr. Bishop. That would be intellectually honest anyway. The 
same thing, if the fee is for administrative costs, why are you 
connecting it to the Rangeland Management Program?
    That is probably a rhetorical question. If you are putting 
that fee money into the Rangeland Management Program, it is 
obviously not just administrative costs that is there.
    What is the specific statutory authority you have to 
actually administer that fee?
    Mr. Abbey. It would be cost recovery for the implementation 
of the work that is done in support of that program.
    Mr. Bishop. But you do not have an one to one relationship 
with that. Our staff has asked repeatedly for specific 
references in statute to where you have that authority.
    Will you provide that to them?
    Mr. Abbey. We would be happy to provide that. I can tell 
you right now that we believe we have the authority under the 
Federal Land Policy and Management Act to do this.
    Mr. Bishop. I need the specifics of that, and once again, 
if it is going to be true, I need to have an one to one 
correlation between the assessment of that fee versus the cost 
to you to manage that process, and not being stripped off and 
going into another one of your funds here.
    Otherwise, that simply is a raising of the revenue, but the 
staff has repeatedly asked the BLM Office to do that and we 
have yet to receive that specific statutory authority.
    I also would like you to see what kind of analysis you have 
done to see what impact that raising of the fee would be on 
grazing.
    It goes back to what Mr. Amodei was talking about when it 
comes simply to sheep grass. All grazing specifically helps 
sheep grass suppression, which helps in fire prevention.
    If this fee is going to have a negative impact on the 
overall grazing, and there are groups out there that want that, 
then it is going to have an impact on the wildlife, on the 
sheep grass, on the fire suppression, and everything else that 
takes place.
    I specifically want the authority in great detail. We have 
some problems with this going forward, specific problems going 
forward.
    I will reiterate, once again, rhetorically, when some of 
that fee is used to mitigate a proposed reduction in the 
Rangeland Management Fund, it destroys your argument that this 
is an administrative cost.
    I have some other questions, too. In the Federal Registry, 
it states ``BLM will also seek nomination of areas of critical 
environmental concern and information on the lands that may 
possess wilderness characteristics.''
    My concern is that is almost verbatim of the language you 
used when you came up with the wild lands proposal, which I 
thought was going to go away.
    The question I have, and I am going to ask you to 
specifically notify my staff every time this request is made in 
the context of a proposed RMP revision, mandate or other, BLM 
publicly or privately seeking this type of information.
    Can I make that request of you?
    Mr. Abbey. You can make the request.
    Mr. Bishop. Will you honor that request if I make it?
    Mr. Abbey. We will look into your request and respond 
accordingly.
    Mr. Bishop. Not quite the same thing as what I was 
requesting, but I will take that for where we are going from 
here.
    Mr. Jarvis, can I ask you very simply how much it cost you 
to clean up from the Occupy Wall Street?
    Mr. Jarvis. You mean Occupy D.C.?
    Mr. Bishop. Yes.
    Mr. Jarvis. The clean up we anticipate will be $8,000 in 
terms of re-sodding at McPherson.
    Mr. Bishop. What about manpower, trash pick-up and the 
other stuff?
    Mr. Jarvis. The total cost to date that we have accumulated 
is around $900,000, for all of the operations, law enforcement, 
clean up, trash pick-up. A few U.S. Park Police and our Mall 
operations staff.
    Mr. Bishop. I asked Mr. Salazar the question the other time 
he was here if you are raising the $10 overnight camping fee in 
that special recreation management area in Colorado, if those 
people were to object to that fee and occupy it under their 
First Amendment rights, would you still charge them the fee, 
and Mr. Salazar said yes.
    If they were to occupy that area under their First 
Amendment rights, can you give Mr. Abbey some advice on how he 
could handle that?
    Mr. Jarvis. I do not have any advice for Director Abbey on 
how to deal with it. I would say the National Park Service has 
learned a lot in this process about dealing with this basically 
unprecedented approach to the First Amendment.
    Mr. Bishop. Thank you. I went over. I apologize. Mr. 
Grijalva, do you have more?
    Mr. Grijalva. Yes, just a couple of quick ones. Mr. Abbey, 
let's try to put something in perspective on grazing fees.
    State fees are per AUM on state lands, and let me see if 
these sound accurate. $13.10 per AUM in Utah. $13 in Nevada. 
$15.30 in Colorado. $9 in Arizona. $14.50 in Idaho. $13 in New 
Mexico.
    Do those sound somewhat accurate?
    Mr. Abbey. I do not have the list in front of me, 
Congressman Grijalva, but I will say that sounds similar to 
what I have seen that is being charged on private lands within 
those states; yes.
    Mr. Grijalva. It is good we are not talking about a double 
standard. It is always good to clarify that.
    Go through some fee structures that mining claims pay on 
public lands.
    Mr. Abbey. Mining claims, they pay a per claim fee every 
time they record their claims each year. Nationally, we have 
over 400,000 mining claims that have been filed on public lands 
that are managed by the Bureau of Land Management as well as 
the U.S. Forest Service.
    They do pay a filing fee.
    Mr. Grijalva. How much is that?
    Mr. Abbey. I am sorry?
    Mr. Grijalva. How much is that filing fee?
    Mr. Abbey. Congressman, could we get back with you on that 
particular fee?
    Mr. Grijalva. Sure. One other question. My colleague from 
Colorado asked about factoring in for reclamation--the 
reclamation fee factoring in the cost of production in a mining 
operation.
    Is there any factoring in on the value of the product on 
public land?
    Mr. Abbey. No. As you know, there are no royalties that are 
collected from any kind of extraction of minerals under the 
1872 mining law.
    Mr. Grijalva. Value is not a consequence of any evaluation?
    Mr. Abbey. No. It would be based upon the tonnage of 
materials that are used or removed.
    Mr. Grijalva. OK.
    Mr. Abbey. Congressman, I do have that figure now. It is 
$140 per claim.
    Mr. Grijalva. One last and then I will yield back. The 
costs with the reclamation fee we were talking about, can you 
give me an average?
    Let's say there is an abandoned claim that then goes under, 
extraction has been done, the mining operation closes, leaves, 
still on public land, that converts back to you. What is the 
average cost of doing reclamation or safety adjustments 
regarding an abandoned claim or abandoned mine operation? Is 
there an average?
    Mr. Jarvis. Are you addressing me?
    Mr. Grijalva. Either one.
    Mr. Jarvis. In the National Park Service, we have some 
abandoned mines. They are legacy mines because we do not have 
much active mining except in a few places. It can be hundreds 
of thousands of dollars if not millions of dollars to do 
restoration.
    Mr. Abbey. It can be millions of dollars to clean up 
abandoned mines. Again, we are talking about legacy mines that 
were built years and years ago. We are not necessarily talking 
about modern mining today because they are fully covered 
through bonds.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Bishop. I have one Member who is jogging over here as 
we speak. We will see if I can stretch one question out long 
enough to see if he can make it or not, unless you have other 
questions, Mr. Grijalva.
    Mr. Grijalva. No.
    Mr. Bishop. Let me try this one, and it is probably for Mr. 
Abbey.
    A couple of weeks ago, the National Park Service objected 
to a planned coal mine that was on BLM property over a dozen 
miles from Bryce Canyon. It was outside the boundaries of the 
Park Service.
    At the same time, I read in the L.A. Times there was a 
solar project that was authorized within 18 months, and it 
covered 3,000 acres including desert tortoise habitat that the 
National Park Service gave its strongest complaints against 
because of the scale of it. That was done at the same time that 
Utah's oil shale was being rejected because the National Park 
Service objected, and that was the rationale that was used.
    As I look at what was happening down by Bryce, in Eastern 
Utah, and then down with the solar project, what is the policy 
of the BLM toward the Park Service when it has complaints that 
reach outside its statutory boundaries?
    How do you handle that?
    Mr. Abbey. We take their concerns to heart. Again, they 
were a cooperating agency relative to the NEPA process, along 
with the U.S. Fish and Wildlife Service and also the local and 
state government.
    We have received several concerns that have been expressed 
as part of the public comment period. We are taking those 
comments. We are doing further analysis to see what actions we 
could approve that would mitigate the concerns that have been 
expressed by all parties who have provided those types of 
criticisms.
    At the end of the day, we will make a decision based upon 
the best information that is available.
    Mr. Bishop. Do you have a specific policy on how you do 
that matrix or is that on a case by case basis?
    Mr. Abbey. It is based upon the specific project and on a 
case by case basis.
    Mr. Bishop. I hope you can understand at least why I look 
at some of the case by case basis especially when I see the 
solar project in California that there were strongest 
complaints against versus other ones. I recognize this seems to 
be a policy or a practice or decision making concept that is 
not necessarily the same in each one of those situations.
    It presents a great deal of concerns.
    Mr. Abbey. The process is the same. It is the matter of 
whether or not we can mitigate the concerns that have been 
expressed.
    Mr. Bishop. I just need you to make better decisions. Is 
that what you are saying?
    Mr. Abbey. A lot of people are saying that.
    Mr. Bishop. Amen. All right. With that, I am going to have 
to tell my colleague that he did not make it over here in time.
    We do appreciate very much your willingness to be here and 
going over the budget requests. We will be talking about this 
obviously at length as time goes on here.
    As I said earlier, there are Members, and indeed, I have 
some questions, that we will submit in writing. Your responses 
would be greatly appreciated.
    Thank you, Mr. Jarvis, Mr. Abbey, for your time, as well as 
for your efforts. I do appreciate it, even though I do not say 
that very often, we do appreciate what you are doing.
    With that, unless Mr. Grijalva has something else before he 
runs away, this committee meeting is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
